<html>
<title> - INTRA-TRIBAL LEADERSHIP DISPUTES AND TRIBAL GOVERNANCE</title>
<body><pre>[Senate Hearing 107-862]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-862

         INTRA-TRIBAL LEADERSHIP DISPUTES AND TRIBAL GOVERNANCE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

   OVERSIGHT HEARING ON INTRA-TRIBAL LEADERSHIP DISPUTES AND TRIBAL 
                               GOVERNANCE

                               __________

                           SEPTEMBER 26, 2002
                             WASHINGTON, DC


84-364              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     1
    Jordan, Derril, esquire, Stetson Law Office..................    25
    Keep, Scott, attorney, Office of the Solicitor, Department of 
      the Interior, Washington, DC...............................     2
    Martin, Aurene, Deputy Assistant Secretary for Indian 
      Affairs, Department of the Interior, Washington, DC........     2
    O'Connell, George, O'Connell and Stevens.....................    25
    Peebles, John, Esquire, Monteau & Peebles, LLP...............    15
    Potts, Donnamarie, chairwoman, Ione, CA......................    15
    Smith, Mike, director, Office of Tribal Services, BIA........     2

                                Appendix

Prepared statements:
    Jordan, Derril (with attachments)............................   244
    O'Connell, George (with attachments).........................   247
    Potts, Donnamarie (with attachments).........................    38
    Shaw, Wayne, acting interim chairman of the general council, 
      Seminole Nation of Oklahoma................................    35

Note: Other material submitted for the record retained in 
  committee files

 
         INTRA-TRIBAL LEADERSHIP DISPUTES AND TRIBAL GOVERNANCE

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 485, Russell Senate Office Building, Hon. Ben Nighthorse 
Campbell (acting chairman of the committee) presiding.
    Present: Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. The Committee on Indian Affairs will be 
in session. Good morning, we welcome our witnesses this 
morning.
    Historically, the Federal Government has determined whether 
and which groups of Indians exist as Indian tribes. Similarly, 
Indian tribes themselves have an inherent power to fashion 
their own form of government, and to make membership decisions 
affecting their tribe.
    Historically, the Federal Government does not fashion the 
tribal governments. It accepts the decision of the tribe, after 
the tribe qualifies through a very rigorous recognition 
process.
    So the decision whether to govern themselves by traditional 
religious forms of government, such as the Pueblos of Mexico, 
or to incorporate under the Indian Recognition Act, as many 
tribes have done, since 1934, rests with the Indian people 
themselves, and that is where it ought to be.
    I think rightly the Federal Government has also 
historically tried to tread very gingerly when it comes to 
getting involved with decisions of the legitimacy of a 
particular tribal government.
    This is a very complicated process. It does not satisfy all 
Indian people who may or may not be tribal members. In fact, 
even last week, those who were watching the debates on the 
floor of the Senate saw one attempt to stop the recognition 
process altogether.
    Nonetheless, the Bureau of Indian Affairs [BIA] has been 
called on to step into what are often very messy and unpleasant 
situations, and to sort things out in a way that respects 
tribal sovereignty, but also the rights of individual members.
    In the course of my tenure on this committee, first as a 
member, and then as the chairman, and now as the vice chairman, 
I have seen an unhealthy increase in disputes and leadership 
challenges that are of an intra-tribal nature. That is not 
inter-tribal. Intra-tribal means the factions or groups within 
a single tribe, battling for control for the legitimacy of that 
tribe.
    Just in the past several months, a series of such disputes 
has caused the Department of the Interior, as well as the 
Congress, to get involved. These include, but are not limited 
to, several instances. The BIA declined to reconsider a 
Regional Director decision to recognize one factor in over 
another in a leadership dispute with the St. Regis Mohawks in 
2002.
    The Bureau acknowledged the validity of a tribal 
constitution in the tribal election of the Crow Tribe in 2001. 
The Bureau got involved with a constitutional and membership 
question with the Seminoles of Oklahoma in 2002.
    They recognized the interim leadership and Constitutional 
challenge for the Saginaw Chippewa Tribe in 2000, and they 
deferred the tribal membership decisions of the Shakopee 
Mdwakanton in Minnesota in 1997.
    In the one that brings us here today, the BIA removed the 
tribal leadership in favor of a challenging faction for the 
Buena Vista Me-Wuks in 2002.
    Today, we will hear from the department, as well as two 
groups who are vying for leadership of the Buena Vista Me-Wuk 
Tribe from Northern California.
    I know something about this area. I knew many of the Me-
Wuks very well. In fact, because I was born and raised in Me-
Wuk Country around Auburn, CA, and I spent many years around 
Sacramento, I knew a number of the family members that are 
involved in this whole discussion. That is particularly how I 
got interested in this.
    I certainly do not have any magic answers to the problems, 
but I believe we need to look at the problems, as well as 
potential solutions that have been offered by the Bureau.
    Senator Campbell. With that, I welcome the witnesses, and 
we will start with a witness from the Department, Aurene 
Martin. Welcome, Aurene; if you would go ahead, if you would 
like to make your statement.

  STATEMENT OF AURENE MARTIN, DEPUTY ASSISTANT SECRETARY FOR 
  INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY 
  SCOTT KEEP, ATTORNEY, OFFICE OF THE SOLICITOR; MIKE SMITH, 
 DIRECTOR, OFFICE OF TRIBAL SERVICES, BUREAU OF INDIAN AFFAIRS

    Ms. Martin. Good morning, Mr. Chairman, I am pleased to be 
here today to present testimony on the role of the Department 
of the Interior in tribal and leadership disputes and tribal 
governance issues.
    To the extent that the department does have a role in 
leadership issues, we are guided principally by the Supreme 
Court's decision in Santa Clara Pueblo v. Martinez, where the 
Court cautioned Federal agencies to tread lightly when taking 
actions that might intrude on tribal sovereignty.
    As a general rule, the department does not become involved 
in the internal disputes of Indian tribes, because we 
understand that to do so would constitute an interference with 
tribal autonomy and tribal self-government.
    Instead, we encourage the establishment of tribal dispute 
resolution mechanisms such as tribal courts, that enable tribes 
to resolve disputes in a forum that they have established for 
themselves.
    There are instances where the BIA's authority to become 
involved in tribal disputes is required by Federal law; for 
example, where Congress has mandated payment of judgment fund 
money to certain descendants of tribal members.
    Notwithstanding the tribe's determination of its 
membership, we are authorized to compile tribal roles or 
certify them for distribution of these trust proceeds.
    In addition, Federal law requires that we know with whom we 
are dealing, when we contract on a government-to-government 
basis with tribes, pursuant to laws like the Indian Financing 
Act and the Indian Self-Determination and Education Assistance 
Act of 1975, and other Federal statutes intended to benefit 
Indian tribal governments.
    In those instances where there is a dispute as to the 
identity of the rightful tribal government empowered to conduct 
business on behalf of the tribe, and it's apparent that no 
tribal resolution is forthcoming, we are authorized to make 
that determination in furtherance of our mission; although we 
take that action in the least intrusive manner possible.
    Furthermore, a tribe's own governing document may provide 
for our involvement. The department does not encourage tribes 
to include such provisions in their constitution bylaws or 
other organic documents, but in some cases, they do exist.
    In those cases, the department may find it necessary to 
take action or make determinations concerning tribal disputes. 
Such determinations are handled in the least intrusive manner 
possible, to ensure that our actions and our decisions do not 
infringe upon the sovereign right of a tribe to govern itself.
    The Administration respects the sovereign-to-sovereign 
relationship between the United States and the 562 federally-
recognized tribes. We will continue to refrain from 
interference, unless noted within tribal governing documents, 
or as is otherwise statutorily mandated to us.
    I would also just like to note a reluctance on our part 
generally to get involved with internal political disputes. 
That is something that we do not take upon ourselves, but only 
become involved in when the situation requires us to do so.
    This concludes my prepared statement. I will be happy to 
answer any questions you may have.
    Senator Campbell. Thank you. In the case of the Buena Vista 
dispute, do you consider that an internal dispute? Because you 
did get involved at that, at the area level.
    Ms. Martin. I think that a leadership dispute is something 
that would generally be felt by us to be an internal dispute, 
and we would hope that disputes concerning leadership or other 
internal disputes would be resolved within the tribe; usually 
through a tribal court or some other means, before we would 
have to deal with them at all.
    Senator Campbell. Well, I know you have only been over 
there at the Bureau for about 1\1/2\ years. The decision, as I 
understand it, was made at the area level. What did the Bureau 
look at, when it decided to get involved?
    Ms. Martin. As I said earlier, we do not take these issues 
on of our own accord. I think what happened in this particular 
case was that there was a challenge made to the leadership.
    It was brought to our attention, and there is some case law 
that guides our duty to look into those issues, when they are 
brought to our attention. So it was pursuant to that challenge, 
that we started to look into this issue.
    Senator Campbell. Well, as a precedent to that, and I am 
not an attorney; fortunately, I have some very good attorneys 
on staff, but I am not an attorney, but I am told that this 
case essentially held a previous case, that might have set a 
precedent, which was the Santa Clara Pueblo v. Martinez in 
1978, quite some time ago. It held that the United States had 
no authority to get involved in the internal affairs of a 
tribe.
    Martinez dealt with the question of membership in the Santa 
Clara Pueblo. So what was different in that case? 1978 was a 
long time ago, but have you researched that?
    Ms. Martin. Well, the Santa Clara Pueblo v. Martinez case, 
I think, generally stands for the fact that tribes, as 
sovereigns, regulate their own internal affairs. To the extent 
that the Federal Government has those interactions with tribes, 
they are not to become involved in those internal workings.
    I think that the context of our involvement in this case 
and other cases, where there are internal disputes, as to what 
our responsibility is to those tribes in operating Federal 
programs, that necessarily means sometimes that we have to know 
who the leaders are, or we have to at least determine for our 
purposes who the leaders are, so that we can administer our 
programs, like self-governance.
    Who do we contract with? Who do we disburse that money to? 
If we have social services money, who do we give that money to, 
and who operates those programs? So it is in our interface with 
those tribes that we have to kind of make a determination as to 
who we deal with.
    Senator Campbell. So is it fair to say you get involved 
with them more, if there are some Federal programs involved, 
and if there are not Federal programs dealing with money that 
goes to the tribe, you are less inclined to get involved with 
internal disputes?
    Ms. Martin. Yes; that is true.
    Senator Campbell. Is that a fair statement?
    Ms. Martin. Yes.
    Senator Campbell. Your statement cites the Martinez case, 
and says that the department likes to tread lightly. Yet, it 
seems to me, at least from what I have been able to read, that 
when the decision was made at the area office, it did not sound 
to me like it was treading very lightly.
    I have not received a response yet, but I did write to the 
Department of the Interior Inspector General's Office to get a 
little better handle on what actually happened at the area 
level. I do not have a response to that yet, but I am hoping to 
get that in the next week or so.
    Let me just go on to a couple more, because I think in your 
testimony, you did answer one or two. First of all, why was the 
Regional Office handling the case? The case was being dealt 
with by the Pacific Regional BIA Office, which I think is in 
Sacramento, if I am not mistaken.
    Whatever the final outcome of the dispute may be, it 
appears to me that the involvement of the Bureau into this 
dispute must have been pretty important to this tribe, so it 
should be handled very delicately. Why was the decision not 
handled by the Washington Office, by Assistant Secretary 
McCaleb or somebody directly under him?
    Ms. Martin. Under the procedures that we have laid out, the 
Regional Director is delegated with the authority to make these 
kinds of decisions.
    Senator Campbell. And has the Regional Director made these 
kinds of decisions; ``these kinds'' meaning recognizing one 
person in the tribe over another one? Have they have made those 
kinds of decisions in the past?
    Ms. Martin. Yes; they have.
    Senator Campbell. Can you cite a couple of times that they 
have for me, so I know.
    Identify yourself for the record, if you are going to 
speak.
    Ms. Martin. I am accompanied today by Scott Keep from the 
Solicitor's Office.
    Senator Campbell. Okay, Scott, do you want to tell me a 
couple of other times, perhaps, that a very similar thing has 
happened?
    Mr. Keep. Senator, I think that the one that comes to mind, 
and it is important for us, is one at Lower Brule, the 
Grassrope v. Goodface case of a number of years back, where the 
Court basically concluded we had to make a decision.
    The process that the department has of starting with the 
superintendent and then the regional director allows for 
appeals, and allows for the development of a full factual 
record. I would have to think back a little bit more for 
others.
    Senator Campbell. Well, let us just use that one. That is 
the Lower Brule case, you said?
    Mr. Keep. Yes.
    Senator Campbell. And did I understand you to say the Court 
required you to make the decision?
    Mr. Keep. The Court said we had tried to abstain in that 
case from making a decision. The Court basically said, the 
department has to identify somebody.
    Senator Campbell. Well, was this decision, done at the area 
level, also driven by a Court mandate?
    Mr. Keep. I am sorry?
    Senator Campbell. This decision in Sacramento over the 
Buena Vista Me-Wuks, was that driven by a Court requirement?
    Mr. Keep. I cannot recall the sequence of events, but my 
recollection is that there is pending litigation out there, and 
I am not sure at which point the events started. My 
recollection is, it was in the District Court.
    Senator Campbell. Well, I am skipping around a little bit. 
Maybe you could tell me, or Aurene, if you can give the 
sequence of events, about how it started, what happened in the 
beginning? We are going to hear from people on both sides of 
the issue. But from a department standpoint, could you do that 
for me?
    Ms. Martin. I am also accompanied by Mike Smith, who is 
with our tribal services department, and he is more familiar 
with the events.
    Senator Campbell. Okay, Mike, give me a thumbnail sketch of 
how you got involved in this decision.
    Mr. Smith. Good morning, Mr. Chairman, I was not personally 
involved here; but this is as I understand it. The 
superintendent was approached by a person who claimed lineal 
descendancy from the Buena Vista rancheria.
    At that point, there was a person in charge. The leader of 
the tribe had been recognized for a number of years after the 
Buena Vista rancheria was reorganized.
    This person, who claimed lineal descendancy, was able, I 
believe, to convince the superintendent that she should be the 
leader, and should have the right to organize the tribe. I 
believe that is what triggered the whole action.
    Now as I understand it, both sides have filed lawsuits in 
District Court. The decision of the superintendent was appealed 
to the regional director, which is the first level of appeal, 
and then beyond that, the regional director's decision went to 
the Interior Board of Indian Appeals.
    Senator Campbell. I see. Well, you have stated the 
technical part, and what happens in that sequence of the law. 
But Mr. Smith, there is another facet, too, that interests me, 
and always has.
    You are an enrolled member of a tribe. The trauma that I 
would expect if somebody came to you and said, you know what, 
somebody is disputing the fact that you are a tribe, or you are 
a tribal chairman, or you are Indian. This really puts some 
scars on people, and I think it would on any Indian person.
    So from that standpoint, that is what also interests me 
about this particular case, because I think that there has been 
some real emotional damage done to the people involved, too. 
But thank you for that answer.
    Maybe I can go back to Aurene. Your written statement says 
that the Bureau must know with whom it is dealing. I think that 
is absolutely right, when you contact a tribe, pursuant to the 
different Federal statutes, such as the Indian Self-
Determination Act and so on.
    Ms. Potts' testimony, and I have read some of the 
testimony, is that her tribe had a self-governance compact with 
the Bureau for programs and services, and had relationships 
with other agencies, like HUD, and it had been going on for a 
number of years.
    They had tribal employees actually hired and doing these 
programs, administering these programs. So the question is, 
until the appeals are finally decided, should those contracts 
not be in full force? Because as I understand it now, people 
have lost their jobs. Those contracts have been terminated. The 
benefits that would have gone to some very, very needy people 
within the tribe, elders, children, and so on, have been also 
stopped.
    Ms. Martin. My understanding is that every agency may 
handle that differently. In the case of the BIA, under the 
Indian Self-Determination Act, we do have the ability to 
suspend funding for a program, if we make a determination 
regarding leadership.
    But it is my understanding that this case is complicated by 
Court-ordered injunctions in the Federal District Court. That 
is one of the reasons that there are no program moneys flowing 
to the tribes.
    Senator Campbell. So it was driven somewhat by a Court 
decision.
    Ms. Martin. That is my understanding.
    Senator Campbell. When that happens, is the rug just pulled 
out from under them, or are they given prior notice, so people 
can look for other work; or is it just terminated and that is 
it, overnight?
    Ms. Martin. I believe that we are required to give them 
notice, but I do not know how much notice they had, ahead of 
time, of that happening. Mr. Smith wants to speak to that.
    Mr. Smith. Mr. Chairman, if I might, under part 2 of 25 
CFR, there is the appeal process for decisions of line 
officials, the superintendent being the first official.
    Generally when there is an appeal, you are correct. The 
person in charge at the time would normally continue to be in 
charge until the dispute is resolved through the administrative 
process, but the administrative process was disrupted.
    Senator Campbell. I see. Well, let me broaden the question 
a little bit, just for my own information.
    What is the standing of outside parties who challenge 
tribal leadership and their membership, too, for that matter? 
Can anyone come in and say, listen, I just remembered, I am a 
tribal member, and you were the chairman or you are the 
president, but I do not agree with that, and go to court and 
challenge that? Can anybody do that?
    Ms. Martin. We would have, under the Grassrope case that 
Mr. Keep discussed earlier, a duty to look into an allegation 
that is made of that nature.
    Senator Campbell. Who is actually ``we'' that does the 
investigation?
    Ms. Martin. That would be the BIA.
    Senator Campbell. Under what sub-agency?
    Ms. Martin. We are the agency that----
    Senator Campbell. Do you just do that through area office 
or something; you ask them to look into it?
    Ms. Martin. It would be the superintendent.
    Senator Campbell. The superintendent?
    Ms. Martin. Yes.
    Senator Campbell. When you get involved in this, and you 
look into it, is there a timeframe by which you can notify all 
the parties that area involved about when you are going to find 
a resolution to it; like the people that lost their jobs in 
this case? Do they know that there is an end in sight of this 
process, whether they are going to have their jobs back, or 
have to go look somewhere else?
    Ms. Martin. During the pendency of a decisionmaking 
process, I do not think that we have specific timelines laid 
out for this. But once we have a final agency action or an 
agency decision, say, at the superintendent's level, then the 
requirements of the APA kick in, and there are timelines and 
notice requirements and things of that nature that we have to 
follow.
    I am advised that once it gets to IBIA, there are no 
timelines that govern their decisionmaking;
    Senator Campbell. I see. Since I have been on this 
committee, over a decade, we have tried very hard--you were 
with the committee a long time; you know hard we tried to 
encourage stable tribal governments.
    Because in my belief, and I think Senator Inouye's, belief 
and other members, one of the things that has been very 
difficult for tribes to negotiate with outside concerns, to 
build factories, provide jobs to do whatever, is the fear of 
unstable tribal governments and losing their investment.
    You might not want to comment on this, but I would like you 
to, if you feel you can.
    I am really surprised that we have a tribe that 1 day can 
be negotiating with potential partners, borrow money, and 
literally get ``in hock'' for it, sign contracts, and do all 
that; and then, literally without a hearing or anything in 
place can be booted out, because it not only affects the tribal 
members, but anybody they have negotiated with, signed 
contracts with, done something else with, borrowed money from. 
So it seems to me, they all get pulled down this, in this mess.
    Would you like to comment on that?
    Ms. Martin. It would seem that a decision like this could 
have that effect. But, in fact, a person who is subject to one 
of these decisions, or a tribe that is involved in one of these 
decisions, has a lengthy appeal process in which to make their 
case, before a final decision is actually made and that can be 
enforced.
    So it does not just happen overnight. There is a term of 
appeal that everybody has, to one of these decisions. In this 
particular situation, that is my understanding of what is 
happening.
    Senator Campbell. Well, okay, I understand your comments. I 
do not think that resolves the problem we have when contracts 
have been signed, and money has been borrowed, all of that for 
development.
    Now I understand in 1983, there was a case by the name of 
Tillie Hardwick, that dealt with rancherias in California. The 
Court ruled at that time that the United States should deal 
with the rancheria members based not on lineal descendancy, but 
on the successors in interest in their pre-1958 residence. I 
want you to comment on that.
    Now I do not know all the family members. But I did know a 
lady by the name of Marie Potts, even since I was young, even 
in high school. She was kind of the matriarch of the Me-Wuks in 
California, that valley and foothill area, a wonderful, 
wonderful lady. But some of her descendants are obviously the 
ones involved in this discussion.
    If my reading is true, then I have trouble seeing how the 
Potts that is now involved, Donnamarie Potts, how she is seen 
as not legitimate. Can you explain that to me, based on the 
Tillie Hardwick case that says lineal descendancy, that the 
membership should not be based on that, but on successors in 
interest to the pre-1958 residence?
    Ms. Martin. I am going to defer to Mr. Keep on that.
    Senator Campbell. That is fine.
    Mr. Keep. Senator, I think that, with all due respect, your 
understanding, or the way the question was read, is not 
entirely accurate with regard to what Tillie Hardwick said, 
that descendancy is important.
    In another case, and you had mentioned earlier that you 
wanted to have some other citations, involving the Cloverdale 
Rancheria, there was another dispute that was litigated, both 
through the Interior Board of Indian Appeals and through the 
Federal Courts.
    The department was asked to look at whether or not it had 
consistently applied its standards for reorganizing rancherias 
post the Tillie Hardwick decision, and a report was done by the 
BIA, and accepted by the Court and IBIA that we had been 
consistent and that descendancy was one of the criteria.
    Senator Campbell. Was one of the criteria?
    Mr. Keep. Right.
    Senator Campbell. Not the only one?
    Mr. Keep. No; what the Tillie Hardwick case stands for is 
that when the Courts concluded that the department had not 
fulfilled all its obligations under the California Rancheria 
Termination Act, that we had to reinstate the Indian status and 
the rancheria status.
    The Rancheria Act called for the distribution of the 
rancheria assets to distributees, dependents of the 
distributees, and minors, and their lineal descendants. So 
there were the distributees, the dependents of the 
distributees, and the minors who were residents on the 
reservation at the time of the distribution, as well as the 
lineal descendants.
    Senator Campbell. So it is your reading that under the 1983 
Tillie Hardwick case, that successors in interest have no 
bearing or no standing in a tribe?
    Mr. Keep. Senator, I did not mean to imply that. But I did 
mean to say that lineal descendancy is one of the criteria.
    Senator Campbell. One of the criteria?
    Mr. Keep. Right, along with being a distributee or a 
dependent of a distributee.
    Senator Campbell. So based on that information and your 
reading of Tillie Hardwick, you would say that one of the 
people that brought this to our attention, this Donnamarie 
Potts, based on that, you would say that she is not a 
legitimate tribal member or heir?
    Mr. Keep. Senator, I would not want to get into the 
particulars of that. That is something that, while it is a 
frustration for some of the parties to this, but the advantage 
of starting with an agency and then a regional director's 
decision, is that it provides us with an opportunity to develop 
a full record; and that is what we are doing at this time.
    Senator Campbell. Well, I appreciate it, and I understand 
you do not want to get into it. But very frankly, you are into 
it. It just seems to me that the Bureau needs to back up a 
little bit on it.
    In 1994, a Federal Court in California ruled that the 
Interior Department's appeals process for tribal membership 
decisions violated individual members' due process rights, when 
their property rights were extinguished without a full hearing.
    I understand that some of the property rights in this case 
were literally extinguished. Can you comment on that?
    Ms. Martin. Sir, I am not aware of the particular case that 
you are speaking about. But I do believe that our IBIA appeal 
rights do provide for a hearing for appellants to that body.
    Senator Campbell. Do you think they have due process to get 
their property back, you are saying; due process to get their 
property back, if they have lost property in the settlement?
    Ms. Martin. Yes; I think that our IBIA appeals process does 
provide for that due process.
    Senator Campbell. I see. In 1996, before Ms. Potts conveyed 
a 67-acre parcel to the Buena Vista tribal government, she 
requested and received confirmation from the Bureau that:
    No. 1, the Bureau recognized the tribe's constitution, and 
we have that on record somewhere around here, do we not? Yes, 
we have that on record.
    No. 2, the Bureau recognized the tribe's members; and
    No. 3, the Bureau recognized her as the legitimate tribal 
leader. All that has been documented. We have all that.
    After getting those verifications, she conveyed the land 
that was private land, her own land, and that she had paid 
taxes on for years, and it was her piece of property, to the 
tribe. Now, because of the Bureau decision, she has effectively 
lost the land. What recourse does she have?
    Ms. Martin. My understanding is that while she has the 
ability to appeal decisions made within the BIA to the IBIA, my 
understanding is that that is the procedure that is happening 
now, as well as some of the Federal Court actions that are 
ongoing.
    Senator Campbell. Is it the standard practice for the 
Bureau to accept into trust for a new tribe, privately-owned 
land by one of the members of the new tribe, as in this case?
    Ms. Martin. That has happened in the past. I am advised 
that that has happened.
    Senator Campbell. That has happened? Has there been any 
record of when things go wrong, of the individual getting back 
her property or his property?
    What happens, for instance, if they convey it to a tribe, 
and then the tribe builds something on it? That has changed the 
value of the property clearly. When she goes through this 
appeals process, is there any possibility of getting back the 
property, since the tribe is now building on it a factory or 
something else?
    Ms. Martin. I am not aware of any case where we have had to 
deal with that particular issue.
    Senator Campbell. Okay, suppose an individual donates the 
land to the tribe, and later finds out that there was some 
innocent mistake made and, in fact, they are not eligible for 
tribal membership? Should they get the land back or some 
compensation? What I am trying to get at is, does this 
constitute a taking, in your view?
    Ms. Martin. I cannot speak to this specific situation. But 
if you have deeded your land over, if you have made that gift, 
then I do not know that that would be a taking.
    Senator Campbell. Okay, whose name is on the property deed 
for Buena Vista Me-Wuks' tribal reservation? Do you know that?
    Ms. Martin. I do not know, at this time. I can get that 
information to you.
    Senator Campbell. Well, her name was on the deed when she 
owned the property. But when it was transferred to this new 
tribe, under normal circumstances, whose name would be on the 
deed then?
    Ms. Martin. I believe it would be the name of the tribe, or 
it would be the United States holding it in trust for the 
tribe.
    Senator Campbell. The United States holding in trust, I 
see, okay.
    Ms. Martin. And we are just not sure if that trust 
transaction has been completed, yet.
    Senator Campbell. In a written statement some time ago, 
Robert Anderson, the former counsellor to Secretary Babbitt, 
notes that tribes that choose to accept organizing under the 
Indian Reorganization Act of 1934 are not required to adopt a 
constitution under the act.
    As applied to this, the Buena Vista Tribe, why then did the 
Bureau revoke its earlier constitution and require a new one?
    I am told that that statement was just included as a part 
of the record recently, so you may not have had a chance to 
review that or see it.
    Ms. Martin. Right, we do not have that information 
immediately before us. We can get that back to you.
    Senator Campbell. I would like you to get back in writing 
on that point for the members, if you would. Do you remember 
what I asked, or do you want to just get it off the tapes? Do 
you remember what I asked? I want to know why did the Bureau 
revoke its earlier constitution and require a new one for the 
tribe?
    In 1994, Congress enacted the Federally Recognized Tribes 
List Statute, which requires the Bureau to publish annually in 
a Federal register a list of all tribes with whom the United 
States has a government-to-government relationship. Was the 
Buena Vista Me-Wuk Tribe included in that list in 1995, 1996, 
or 1996 through 2001?
    Ms. Martin. I cannot tell you specific years, from 1995 
through 2001. But it is my understanding that they have 
consistently appeared on the list of tribes that are recognized 
by the BIA in the United States.
    Senator Campbell. You do not know if it goes back through 
1995?
    Ms. Martin. Yes.
    Senator Campbell. Please provide that for the committee, 
too, if you would, Aurene.
    Ms. Martin. I think we have printed that list since the 
1970's.
    Senator Campbell. How does the Bureau determine which 
entities should be on the list and which should not?
    I know these are tough questions. I do not mean to be 
putting you on the spot, because I know you have just taken 
this job over 6 months ago. But they are important to me. 
Answer what you can, and what you cannot, I want to get an 
answer in writing, for the record.
    Ms. Martin. Okay, we can do that. The list is made up of 
tribes that have been historically recognized by the 
department, by the United States; and it also contains tribes 
who have been legislatively recognized, or who have gone 
through the acknowledgement process and have been recognized.
    Senator Campbell. So it is after they have completed the 
process; that is when they are included on the record?
    Ms. Martin. Yes.
    Senator Campbell. I understand also that the Bureau 
provides a great deal of technical assistance to new tribes 
regarding their governmental organization. I presume that would 
include assistance in drafting a constitution, establishing 
membership criteria, and compiling a list of members. Is that 
correct?
    Ms. Martin. For tribes that go through the bar process, 
they are required to have those items before their application 
is considered complete.
    Senator Campbell. That is before you offer any assistance?
    Ms. Martin. Before we recognize them, they are required to 
have that information.
    Senator Campbell. But in the process of trying to find that 
information, do you give them any assistance?
    Ms. Martin. We do provide technical assistance, yes.
    Senator Campbell. Did the Bureau help the Buena Vista Me-
Wuk in drafting their constitution or approve the tribe's 
constitution, as has been claimed?
    Ms. Martin. Yes; we did.
    Senator Campbell. They have? Did the Bureau assist the 
tribe in developing the initial roll of its members, as it does 
with most tribes, I assume?
    Ms. Martin. We believe that we did do some research for 
that, yes.
    Senator Campbell. Would you find out for sure, and also let 
us know on the committee?
    Ms. Martin. Yes, sir.
    Senator Campbell. How does the Bureau go about approving or 
confirming who should legitimately be included in the initial 
membership roll of new tribes?
    That is a big question, enrollment and who is legitimate 
and so on. I know that there have been all kinds of accusations 
back and forth, such as, oh, they are not a real Indian or they 
were not on the roll, or something like that.
    But how do you decide originally? Do they turn in a list, 
and do they have to do some research on ancestry or something? 
Is that correct?
    Ms. Martin. I will let Mr. Smith answer that.
    Senator Campbell. Yes; go ahead, Mr. Smith.
    Mr. Smith. Mr. Chairman, in general, the tribe will adopt a 
base roll, and that would be their initial roll, and then they 
add to that over time.
    Senator Campbell. That is the first roll?
    Mr. Smith. The first roll.
    Senator Campbell. Okay, the tribe does that.
    Mr. Smith. Yes.
    Senator Campbell. They turn it in to the Bureau.
    Mr. Smith. Yes.
    Senator Campbell. You accept it verbatim?
    Mr. Smith. Well, in general, we would assist the tribe in 
assuring that everyone on the base roll has gone through some 
kind of analysis or evaluation, to make sure that those are 
their members that they want on the base roll.
    Senator Campbell. You let them do the analysis, though?
    Mr. Smith. Yes; but it is a tribal decision, and then they 
provide that roll to the BIA for approval.
    Senator Campbell. Okay, so that means, I do not know, they 
turn this roll in. They say, they have researched and they have 
done all they can to find out who is legitimate and should be 
on the base roll.
    Then here is a blue-eyed blonde, and they say, no, we are 
absolutely sure, whatever the criteria is, that he is Indian 
and so on. That is what you accept. Is that correct?
    Mr. Smith. Yes, Mr. Chairman; in the case of the Tillie 
Hardwick Tribes, we reorganized the tribes in accordance with 
the distribution plan. The distribution plan listed those 
distributees, dependent members. And in some cases, we were 
able to find lineal descendants.
    So in the first reorganization of the Tillie Hardwick 
Tribes after termination, that was the criteria that was used. 
That became the base roll.
    Senator Campbell. Well, you know as well as I do that, boy, 
a lot of people got dropped through the cracks. When tribes 
were reinstated, some in olden times were scared to death of 
even admitting that they were Indian.
    I mean, that was the problem after the Trail of Tears, that 
people hid out in the woods and in the mountains in Georgia and 
Tennessee and so on, that did not go on the Trail of Tears, had 
little difficulty organizing that they were, in fact, Cherokees 
that refused to go on the trail.
    In fact, when they were asked to come out to so-called ``be 
recognized,'' I mean, holy mackerel. I said in a statement here 
the other day, if you knew that somebody was going to kill your 
family, would you step up to be recognized; hell, no, nobody 
would. So there are a lot of real Indian people out there that 
have got kind of lost in the mix, as you know.
    When the BIA revoked the Buena Vista tribal constitution, 
in this case, you declared that the tribe's constitution was 
invalid because of a technicality, even though you helped draft 
the document in the first place; and the tribe had been 
operating and receiving Federal funds for nearly 10 years. Did 
the Bureau ever inform Ms. Potts that the constitution was 
defective and needed further approval, any time in that 10 
years?
    Ms. Martin. Sir, I would have to look into that and get an 
answer back to you in writing regarding that situation.
    Senator Campbell. Do any of your colleagues happen to know 
the answer to that? I would like to know that. I think that is 
a really important question. I want to know if they ever 
informed her of that.
    If you have any documentation that they were informed any 
time in that 10 years that they needed to revised their 
constitution or needed to do anything with it, I would like to 
see that document, if you could provide that for the committee, 
too.
    Are you aware that there are other tribes in the United 
States that have been recognized by the Bureau, but whose 
constitution, like this tribe, the Buena Vistas, are approved 
and functioning, that were not created by secretarial election?
    Ms. Martin. Yes; I am aware of that.
    Senator Campbell. In that case, how do we explain singling 
out the Buena Vistas for rejection, and what kind of a 
precedent does this set, or how are we going to handle several 
other tribes that apparently are affected by this action?
    Ms. Martin. Well, I think that what we are talking about 
here is a distinction between a tribe that has organized under 
the Indian Reorganization Act and tribes who have not.
    I think that probably the most obvious of a tribe that has 
not organized, pursuant to the Indian Reorganization Act, is 
the Navajo Tribe. They are not required to hold secretarial 
elections in order to adopt a new constitution; whereas, tribes 
who have reorganized under that act do have to follow those 
requirements.
    Senator Campbell. Can you tell me any other tribes that are 
affected by this kind of an action?
    Ms. Martin. I am advised that the Crow Tribe is also not 
organized under the Indian Reorganization Act.
    Senator Campbell. I have many Crow friends. My dad was in 
boarding school at Crow, and I understand the complicated 
process that the Crows have in their form of government.
    As a broad policy, if Indian tribes are sovereign nations, 
why is the Federal Government still involved in approving their 
tribal constitutions, anyway?
    Ms. Martin. Because of the Indian Reorganization Act and 
tribes that organize under that act.
    Senator Campbell. You are required to do it?
    Ms. Martin. Right; as a broad policy matter, I know that 
the Assistant Secretary and myself are not fans of BIA 
involvement in approving tribal constitutions or tribal 
ordinances. We both believe very strongly that those are 
matters that are internal to the tribe, and those documents are 
not something that we should be approving.
    Senator Campbell. All right, and the last question, what is 
the final status of this matter? When do you expect an IBIA 
decision?
    Ms. Martin. The IBIA process exists separately from the 
Assistant Secretary. We do not know when a decision will 
happen, but we do know that the opening briefs are due at the 
end of October.
    Senator Campbell. The end of October; opening briefs are 
due at the end of October?
    Ms. Martin. Yes.
    Senator Campbell. Okay, well, I thank you and I thank you 
for appearing. Just let me say that I think you are a very fine 
public servant.
    I did not mean to single you out or put you on the spot. 
You know that. You know that I have great respect for you. It 
is just that this is a very, very important question, and 
particularly important to me, because we are dealing with 
friends and family on both sides of the issue. But thank you 
for appearing.
    Ms. Martin. Thank you very much; we will get those answers 
to you.
    [Information not available at time of press]
    Senator Campbell. We will now hear from the folks that are 
directly involved with this. I would like Donnamarie Potts, if 
you would just come on up to the table. Do you have somebody 
with you?
    Ms. Potts. Yes; I have my attorney present.
    Senator Campbell. All right, is this the first time you 
have ever appeared before a committee?
    Ms. Potts. Yes.
    Senator Campbell. Okay, I hope that it is not intimidating 
and that you are just going to be able to relax.
    Ms. Potts. I will do my best.
    Senator Campbell. You know, what we are interested in is, 
just telling your story.
    Ms. Potts. Yes, sir.
    Senator Campbell. Go ahead and sit down. All of your 
written documentation will be included in the record for very, 
very careful study. If you want to abbreviate or add to it or 
something like that for the committee, it is all going to go on 
the record, your written testimony and your spoken testimony, 
too.
    But I know sometimes when people come to Washington for the 
first time in front of a committee, they have a little anxiety. 
But we are not the enemy.
    Ms. Potts. Thank you.
    Senator Campbell. Many times we get involved in these 
things mostly to try to find the answers to very complicated 
problems. So just go ahead and tell us your story, and then I 
would like to ask you and your attorney some questions.
    Ms. Potts. All right.
    Senator Campbell. Would your attorney identify himself for 
the record?
    Ms. Peebles. Yes, Mr. Chairman; my name is John Peebles. I 
am with the law firm of Monteau & Peebles. The office that I 
work out of is in Sacramento, CA.
    Senator Campbell. Okay, thank you, Donnamarie, go ahead.

     STATEMENT OF DONNAMARIE POTTS, CHAIRWOMAN, IONE, CA, 
  ACCOMPANIED BY JOHN PEEBLES, ESQUIRE, MONTEAU & PEEBLES, LLP

    Ms. Potts. Good morning Mr. Chairman, Mr. Vice Chairman, 
and the esteemed panel. Thank you for this opportunity to 
appear before this committee on a matter of great importance. 
This is the future of my family and my tribe.
    I have numerous documents sitting in front of me. I have a 
document also to the left of me, that I received from the BIA, 
that documents some of the things that I will read today.
    In 1994, with the assistance of the Sacramento Office of 
the BIA, my late aunt, Lucille Lucero, completed and adopted a 
tribal constitution. The constitution named myself and my 
children as historical members of the tribe. We have with us, 
of course, as I mentioned before, the photographs.
    One of the ladies in the photograph was a lady visiting 
from Washington, DC, and I think it would be nice if I could 
find out who she was. I was given a business card, but it was 
not the person who was visiting at that time. She was a witness 
to the signing of our 1994 constitution.
    Senator Campbell. These are the photographs you have in 
front of the table here?
    Ms. Potts. Yes, sir.
    In 1980, my elders had deeded the majority of the Buena 
Vista property ownership to my name, as I was the one that was 
chosen to carry on the tribal heritage, because I had a deep 
investment in our culture.
    I bought the remaining rights to the last part of our 67 
acres on the rancheria with my own funds, earned by working in 
those local fields, which are grapes. I worked in everything 
that is in the area and even up in the North Yuba area.
    To ensure this would remain a home for my people, I decided 
to donate the land to the tribe, itself. Before doing so, I 
asked the BIA for confirmation of our constitution and the 
membership of my family into the tribe.
    As you can see from his response, Superintendent Harold 
Bradford clearly states that I am a member of the tribe. In 
addition, he declares the constitution enacted by my aunt was 
valid.
    This is only one example of confirmation from the BIA. I 
have over 30 examples briefly in front of me, which I am sure 
will be presented to this committee.
    In this government-to-government relationship between the 
rancheria and the Federal Government, including participation 
in self-governance and other Federal programs available only to 
recognized tribes, to this day, I continue also to receive 
documents listing me as the chairperson to the Buena Vista 
Rancheria.
    Unfortunately, at our local post office, a lot of my stuff 
is opened, especially when it comes from the Department of the 
Interior. Everything is always taped.
    Senator Campbell. Who opens that?
    Ms. Potts. I have no idea.
    Senator Campbell. Have you complained, since that is a 
Federal offense?
    Ms. Potts. I did make a complaint to the local postmaster, 
and my attorney is aware of that. We had an idea who it was. 
But like the postmaster locally there said, I had to prove who 
it was. I also had a letter from Harold Bradford, when I had 
complained about this in early 1995, and Harold talked to me 
about that.
    Relying on the 1996 letter, I deeded all of my lands to the 
tribe, hired tribal employees, and began exploring 
opportunities for economic development and other projects to 
benefit, not only our tribe, but all Indian people in the area, 
whether they were from California or not.
    I consider this to be a right created from my own property 
under Federal Indian law. As you can understand, I was shocked 
and terrified in December of last year to receive a letter from 
that same BIA office, informing me that the Federal Government 
no longer considered me and my family members of a tribe or the 
rancheria.
    Senator Campbell. Harold Bradford signed your original 
letter. I have a copy of that. Who signed this recent letter 
you got that you are speaking of?
    Ms. Potts. This was Dale Risling.
    They also now say that the constitution they enacted, 
approved and affirmed is no longer valid, as you will see in 
the materials I have presented.
    The Government told us we were a tribe. They assisted us in 
preparation and approved our constitution. They recognized 
historic members, as designated by the elders. They recognized 
me as the tribal leader. The Government, over and over again, 
has told us our constitution was valid.
    Then in a secretive, closed-door process, that same agency 
of this Government told us none of this had ever existed. There 
was no hearing, no opportunity to confront any accuser or 
decisionmaker, no opportunity to challenge documents that were 
fraudulently used against me. This, to myself and my own tribe, 
is nothing less than termination. God help us if we have 
another termination era.
    This proclamation was made despite the fact that we have 
appealed to the Interior Board of Indian Appeals, the IBIA; but 
we understand that it make take years for this ruling to be in 
effect.
    While Assistant Secretary Neal McCaleb has declined to take 
this appeal in his office, it is clear from the regulations 
that he will eventually have to rule on our tribal appeal to 
the IBIA. In my opinion and in my tribal opinion, this is a 
process that was taken away from the tribe.
    I am encouraged by the interest you have taken to discuss 
our tribe's history and my family. Without this venue, our fate 
would entirely in the hands of the people who do not know or 
care about the history of my tribe and the family, and do not 
understand the importance of our vows to our elders.
    The fact that you have taken this time out of your busy 
schedule, this esteemed panel and Mr. Chairman, it gives me the 
resolve to continue in this struggle. We will forever remember 
this, and pass the story of this event on to our children.
    I wonder why, because I am a leader of a sovereign nation 
that dared to explore the financial opportunities available 
under Federal Indian law that might create competition or 
jealousy. It is just my small tribe against others. Without 
this opportunity to tell our story, we would be overwhelmed.
    It has affected our family, our tribe. It has affected the 
other people in the area, other natives that I have helped 
before. Our Indian Big Time is coming up, and we have always 
helped the Roundhouse and all these tribal leaders. The 
Franklin family have come to us before, because we were one of 
the tribes that would help them with a little bit of money. 
That was part of our culture.
    We are losing everything. I am not trying to be a cry baby 
about it, but we established a good credit base. We built up 
our tribe. We have never had to live on welfare. That is one 
misconception about native people, that we are all these poor 
people, hungry and living on welfare.
    Luckily, we were in an area where we could work in the 
fields, and we always have. Even when our property belonged to 
us, it was very hard to get that money, but grandpa and grandma 
did it.
    As I said before, I would like to thank you very much for 
giving me this time. For the other questions, I would like to 
defer them to my attorney, Mr. Peebles.
    [Prepared statement of Ms. Potts appears in appendix.]
    Senator Campbell. Okay, we will maybe ask him some, and we 
are particularly interested in your own views.
    Ms. Potts. Thank you.
    Senator Campbell. I have a letter that has been introduced 
in the record with other documentation, May 17, 1996, signed by 
Harold Bradford, the superintendent for the Central California 
Agency. It is addressed to you, Donnamarie Potts, Buena Vista 
Rancheria, Sacramento, CA.

    Dear Ms. Potts: This letter will serve to provide you with 
the formal position that the Central California Agency has in 
regards to both the status of the Buena Vista Rancheria, as 
well as the status of the tribal government.
    As the sole spokeswoman and surviving distributee of the 
recognized Buena Vista Rancheria, Lucille Lucero did enact and 
put into effect a governing document. This action by Ms. Lucero 
did, by definition, initiate and constitute a formal 
organization process for the Rancheria that has been completed.

    I am not familiar with Lucille Lucero. Was she related to 
you?
    Ms. Potts. Yes.
    Senator Campbell. What is the relationship?
    Ms. Potts. She is my aunt.
    Senator Campbell. She is your aunt?
    Ms. Potts. She is the lady that raised me. We have numerous 
documents in the huge pile. That is too much to go into here. 
But it is for your reading later, of documentation of my 
photos. Because these are the people that raised me, which 
often happens in a lot of the native tribes.
    Senator Campbell. Yes, sure.
    Ms. Potts. You are adopted into the family and they take 
care of you, and they also train you. I was one of their 
trainers, as a singer and a dancer.
    Senator Campbell. It goes on to say:

    Ms. Donnamarie Potts, by virtue of this governing document, 
was recognized as having historical tribal member status. 
Further, since the ultimate untimely passing of Ms. Lucero, the 
tribal government has been organized and has chosen Ms. Potts 
as the primary spokesperson for the Rancheria.

    Additionally, the Central California Agency does recognize 
Ms. Potts as the formal representative for the Buena Vista 
Rancheria, and that a government-to-government relationship 
does exist between the Federal Government and this rancheria.
    In this context, formal 638 contracts have been entered 
into between the BIA and the Buena Vista Rancheria, as well as 
the agency's continuous provision of other direct Federal 
services to the rancheria and tribal membership.
    The Buena Vista Rancheria, by virtue of its Federal 
recognition status and formal organization of the tribe, is 
entitled to all benefits and services reserved for tribes with 
this classification. Hopefully, this correspondence will 
provide you with clarification as to the tribal status.

    You relied on this record, this letter, to proceed to enter 
into contracts, to hire people, to set up all the things you 
did?
    Ms. Potts. Yes, Mr. Chairman; we also have photos of the 
signing of our constitution, with Ms. Lucero. And for someone 
to question to me, as a native person and getting older as to 
speak, to me, it is a direct insult from the BIA to state, you 
are not a tribe, and to take away our sovereignty.
    This lady, there was nothing wrong with her mentally. She 
was in a wheelchair, yes. But to demean her character, to me, 
that is an insult.
    Senator Campbell. Is this Ms. Lucero, down here in this 
picture?
    Ms. Potts. Yes; it is.
    Senator Campbell. Who are the other people in the picture 
over here on the left? I see you in the picture. Who are the 
other people?
    Ms. Potts. Ben Charlie is in the picture, that works with 
the BIA; Harold Bradford, and Ray Fry are also in that picture, 
that signed this letter that I presented today.
    The other lady in the picture was Mr. Bradford's assistant. 
She is no longer there. Then the lady in the floral dress was 
visiting from the Department of the Interior, that I have yet 
to identify. So I need to find out who she is, for my own 
record, for our family history.
    The other photo that I have here is of Lucille and I. She 
made the comment, she is holding a tissue in her hand because 
grandpa and grandma could not read and write, and there was 
another issue where they had property taken. She was holding 
the tissue in her hand because she marked the document with her 
thumb, because that is what she was told to do with her 
arthritis so bad. But she could write a little bit.
    Senator Campbell. Was she related to the elder Marie Potts 
that I said I knew when I was young?
    Ms. Potts. Yes; they were cousins.
    Senator Campbell. This is her cousin?
    Ms. Potts. Yes.
    Senator Campbell. Marie Potts' cousin?
    Ms. Potts. Yes.
    Senator Campbell. Okay, after you verified and after you 
assumed you were on the right track and you got this letter and 
you conveyed your land, your 67 acres to the tribe, tell me 
what you did then. You entered into some contracts. You went 
out on a financial limb. You did some things of that nature?
    Ms. Potts. Yes; I did.
    Senator Campbell. Tell me what you did.
    Ms. Potts. I was approached and talked to several different 
people.
    Senator Campbell. During that time or before, by the way, 
did you have any problem with your membership or leadership 
with other tribal members?
    Ms. Potts. No, sir; I did not.
    Senator Campbell. Okay, go ahead.
    Ms. Potts. Well, during that time, I was approached by 
several different people to go into gaming. Our elders were a 
little bit afraid of gaming before. But then they thought that 
was an avenue to get money, because we did not have 
electricity. We did not have a working well, as you knew, on 
that property. We have, I call it, our own crystal springs 
there.
    So we entered into and received a loan. I went out and got 
a loan from a developer, and that is what we were doing.
    Senator Campbell. Who is going to be responsible for that 
loan?
    Ms. Potts. We are.
    Senator Campbell. Do you have money to repay a loan like 
that?
    Ms. Potts. No; I do not.
    Senator Campbell. Did the Bureau ever tell you, at any 
time, that your constitution needed additional steps or 
ratification or changes?
    Ms. Potts. No.
    Senator Campbell. And they did not tell you, at any time 
from 1996 until roughly 10 months ago, that you were not the 
legitimate leader in the tribe, in the eyes of the Bureau?
    Ms. Potts. No; they did not.
    Senator Campbell. Under your constitution, are there 
procedures for individuals to apply for membership?
    Ms. Potts. Yes; there are.
    Senator Campbell. This is not the base roll that you 
started with, when you formed. But I mean now someone could 
come in and say, gee, my mother was such and such.
    Ms. Potts. Yes; we have researched that, and we have had 
some letters from other people.
    Senator Campbell. Okay.
    Ms. Potts. And we did research that for them, and we sent 
the reply.
    Senator Campbell. Tell me how they do it. How do they 
apply? Do they just write you a letter? Do they have to supply 
some kind of proof or what do they do?
    Ms. Potts. They do have to supply proof.
    Senator Campbell. What kind of proof?
    Ms. Potts. Well, for us, we go under the Tillie Hardwick. 
Some of our decisions are made under that, and we have an 
application for it.
    Senator Campbell. Which means what? I forget; Tillie 
Hardwick had dealt with lineal descendancy? Maybe your attorney 
could answer that.
    Ms. Potts. I would like our attorney, Mr. Peebles to answer 
that.
    Senator Campbell. Mr. Peebles, can you tell me about that?
    Mr. Peebles. Yes, Mr. Chairman; the current tribal 
constitution provides for a membership of individuals who are 
related to people who are on the historical rolls. There is a 
process by which people can apply to the tribe, and submit the 
information with regard to their heritage and their 
relationship to the tribe, and the relationship to Me-Wuk 
people.
    Senator Campbell. Okay, and that is done with most tribes. 
In this case, can the person that applies, do they have to be a 
blood descendent? Can they be adopted? What are the parameters 
by which a person can apply?
    Mr. Peebles. There are provisions for both.
    Senator Campbell. Provisions for both?
    Mr. Peebles. That is correct.
    Senator Campbell. There are provisions for both?
    Mr. Peebles. Yes.
    Senator Campbell. Have you had people apply that were 
accepted, that were then recognized by the Bureau, before 10 
months ago? I mean, after you did your initial base roll, was 
there anybody that also applied, that was put on the roll, that 
then was accepted by the Bureau?
    Ms. Potts. No; there was not.
    Senator Campbell. There was not?
    Ms. Potts. No.
    Senator Campbell. Well, then the other person that is 
involved in this is Ms. Pope. I am sorry that she is not here 
with us today, so she could tell her story, but her attorneys 
are here. When did she apply for membership?
    Ms. Potts. She has not applied at all for membership, 
except to the Bureau. When she went into the Bureau, I was sent 
a letter, telling me to get off the rancheria, give up all my 
programs, and the letter was directly from Ms. Pope, herself.
    To this day, I do not know what this person looks like. I 
really do not. I have never met her.
    Senator Campbell. You have never seen her?
    Ms. Potts. No, sir; I have not.
    Senator Campbell. She could be sitting right here in this 
room, and you would not know it?
    Ms. Potts. That is true, I would not.
    Senator Campbell. Well, let me ask your feeling about 
something. You have been the leader of a tribe for 10 years; 
basically, in terms of many statues, a sovereign nation.
    This has always interested me, and it is a little bit 
aside. But how do you feel about having all of your documents, 
as a sovereign nation, having to be approved by Washington, DC?
    Ms. Potts. Well, personally, if you pardon my French, I 
wish they would leave us the hell alone. It is a tribal 
decision. We are a sovereign nation.
    Senator Campbell. You are not the first person that has 
expressed that.
    Ms. Potts. I wish they would just leave us the hell alone.
    Senator Campbell. I understand.
    Ms. Potts. Let us rule the way we usually do. It is a 
tribal thing.
    Senator Campbell. You know, I understand. It is for another 
time.
    Ms. Potts. Yes.
    Senator Campbell. It is not for a debate today. But on 
several occasions, I have said, it is interesting that American 
Indians are the only ones that have to be recorded and 
documented by a government set up by newcomers. But that is the 
way it works.
    I understand that under the Indian Gaming Regulatory Act, 
in a gaming compact with the State of California, you have 
arranged with a developer to operate a casino on this property. 
Is that right?
    Ms. Potts. Yes, sir; I have.
    Senator Campbell. You have arranged for a developer?
    Ms. Potts. Yes; and that is a loan. That is not free money.
    Senator Campbell. Can you describe what you plan to do, if 
you went forward with this? I know there are many casinos, and 
California is a growing State.
    Ms. Potts. I highly believe in education. Because growing 
up, before I went to the college, myself, as an adult. I 
believe in education. I have always worked in education. I have 
worked in the V, VII, and title X programs.
    Our native children really need to be kept in school. Our 
future is our education. Even if they just went to high school, 
they do need to learn how to vote, as so many of our kids do 
not even know that process.
    Senator Campbell. Yes.
    Ms. Potts. I would like to see an elder center. I would 
like to see moneys freed up for people that are in that little 
gray area, where you cannot get a loan. If you get a loan from 
someone, and you are on social security, you cannot spend that 
money. You know, you are penalized for it.
    But there are so many elders there, that are sitting on an 
adjourning reservation, that need little windows in their 
house, right now.
    Senator Campbell. Yes; did you donate your 67 acres, the 
whole thing?
    Ms. Potts. Yes, sir; I did.
    Senator Campbell. You did that to make up the reservation?
    Ms. Potts. Yes, sir; I did.
    Senator Campbell. You did not keep any of it yourself? You 
donated the whole thing?
    Ms. Potts. I was advised by an elder to do that, but I did 
not.
    Senator Campbell. You were advised by elders to keep a 
little piece for yourself, but you did not?
    Ms. Potts. Yes.
    Senator Campbell. In this whole process, it is complicated. 
But have you offered or been offered an opportunity for a 
financial settlement, to kind of go away, to get out of this 
whole thing?
    Ms. Potts. Yes; I have and I would like to defer to my 
attorney for that comment and to answer.
    Senator Campbell. Yes, sir; go ahead.
    Mr. Peebles. There have been some settlement discussions, 
Mr. Chairman, with regard to this issue.
    Senator Campbell. Do you have anything in writing for the 
record, or was that just conveyed verbally to you?
    Mr. Peebles. No; it was verbal. There is nothing in 
writing.
    Senator Campbell. It was conveyed to you, as the attorney 
representing Donnamarie?
    Mr. Peebles. That is correct.
    Senator Campbell. And what was her reaction to that? Did 
she consider it, or just out of hand reject it, or what?
    Mr. Peebles. I was advised that Ms. Potts' heritage was not 
for sale.
    Senator Campbell. Donnamarie, how did you find out about 
all this? Were you consulted during the decisionmaking process, 
that you were going to be relieved of your chairmanship and all 
that?
    Ms. Potts. No, sir; after I received a letter from Ms. 
Pope, I called the Bureau, and the Bureau said that well, this 
person is a descendent. You need to let her be a member, and 
she did not apply for membership. That was it.
    Senator Campbell. I am informed that we do not have a copy 
of Ms. Pope's letter apparently on record. Do you have a copy 
of that?
    Ms. Potts. We have it in a pile of our documents that we 
brought.
    Senator Campbell. With your permission, I would like all 
those documents to be included in the record, everything you 
have.
    Ms. Potts. Okay, yes, sir, you may have them.
    Senator Campbell. So you did not find out the decision that 
the Bureau area office made until how long after you got this 
letter from Ms. Pope?
    Ms. Potts. When we had an advertisement in the paper, when 
you work with all the counties, and we have gone through all 
the county meetings and the water issues in the area, fire 
department, police, et cetera, in the community itself, it was 
put in the newspaper, because we did not see any reason to hide 
it.
    After that was initially announced in the newspaper, that 
is when I received a letter from this person stating that she 
wanted to protect a cemetery.
    Senator Campbell. How many members does the tribe now have?
    Ms. Potts. We have 12 members.
    Senator Campbell. The tribe has 12 members?
    Ms. Potts. Yes, sir; we do.
    Senator Campbell. Were those all on what is called a base 
roll?
    Ms. Potts. Yes.
    Senator Campbell. Were those all of the 12 that formed the 
original roll?
    Ms. Potts. Yes.
    Senator Campbell. So no other people have been admitted to 
the roll since that time, since the base roll was established?
    Ms. Potts. No.
    Senator Campbell. And you already said you were not 
consulted during this decisionmaking process at all?
    Ms. Potts. No, sir; I was not.
    Senator Campbell. Well, maybe just a final question, Ms. 
Potts, what would you suggest as a remedy? What would you 
suggest that this committee do? This is an oversight hearing 
and not a legislative hearing. So we want to get testimony and 
add some transparency to this problem. But what would you 
suggest that we do?
    Ms. Potts. They need to butt out. It is a tribal decision, 
sir. I know there is a process, and if we do not set a 
precedent here today, there are many other tribes that are 
going to lose on this, if it goes against us, this decision.
    Senator Campbell. They need to butt out, meaning the Bureau 
or us, too?
    Ms. Potts. The Bureau, the local Bureau.
    Senator Campbell. Well, I appreciate your testimony and I 
thank you for appearing.
    Ms. Potts. Thank you.
    Senator Campbell. I know it was a long trip from 
California.
    I would like now to hear from Derril Jordan, who is with 
the Stetson Law Office of Washington, DC. Mr. Jordan, is this 
the law office of Kate Stetson?
    Mr. Jordan. That is right.
    Senator Campbell. I know her well. She is a very fine lady, 
by the way.
    I am sorry that the lady that I would have like to have 
heard from, from the other side, was not able to attend. 
Through staff, and I guess it was just yesterday, I was told 
that you wanted us to delay this. But unfortunately, people had 
already come across the country for it. It is not like they can 
buy a ticket every day to get on a plane. It was just not 
possible to do it.
    But maybe I should ask you, right up front, you are 
speaking for Ms. Pope?
    Mr. Jordan. Yes; and I am accompanied by George O'Connell.
    Senator Campbell. Does she also have a statement that she 
would like to introduce?
    Mr. Jordan. We have two written statements that we would 
like to introduce.
    Senator Campbell. But they are signed by her?
    Mr. Jordan. We have two written statements that we will 
submit for the record, and we will definitely be submitting 
additional materials.
    Senator Campbell. May I also ask you what is the reason she 
was not here?
    Mr. Jordan. We did not get notice of this until Friday 
afternoon, after 5 o'clock Washington time. It was not until 
Monday that I made first contact with your staff, and I did not 
have any substantive discussion with your staff until Tuesday.
    We had originally, given the late notice, decided that we 
would not attend. But after discussing it, we decided, with all 
due respect to this committee and the work that it does, that 
we wanted to be able to be here to help elucidate these issues 
for you. So we got people here as soon as we could.
    Mr. O'Connell. Senator, can I introduce myself, as well?
    Senator Campbell. Yes.
    Mr. O'Connell. My name is George O'Connell, and I am also a 
lawyer for Ms. Pope. In response to your question, I would like 
to tell you, Ms. Pope would very much like to have been here. 
But she is a single mother of three children. She has a job, 
and she was simply unable, on such short notice, to make 
arrangements.
    Senator Campbell. I understand, and really, I need to offer 
you a little bit of an apology, too. Because we only have about 
10 more days or less of actually working time, and then we are 
going to adjourn in Congress, as you know, until the middle of 
January or something. I did not want to let this be delayed any 
longer than that, and we just could not find a time later on, 
in the next 2 weeks, to fit it in.
    Mr. O'Connell. We appreciate that, Senator, and that is why 
we wanted to be here.
    Senator Campbell. I am glad you are here.
    Mr. O'Connell. We think it is important that you understand 
that there are two sides to this story.
    Senator Campbell. That is what I want to hear.
    Mr. O'Connell. Ms. Pope, whom I have the honor to 
represent, is the great-granddaughter of Louie and Annie 
Oliver. Those two people were some of the original inhabitants 
of Buena Vista.
    Senator Campbell. I am just trying to get something in my 
mind, between Ms. Lucero and Ms. Oliver, Marie Potts, and some 
of the other people.
    Mr. O'Connell. That is what I would like to do, Senator.
    Senator Campbell. I just wondered what the blood connection 
was between those people.
    Mr. O'Connell. Senator, the Olivers were original 
inhabitants of Buena Vista.
    Senator Campbell. Yes; I knew that.
    Mr. O'Connell. And in 1958, when it was terminated, Louie 
and Annie Oliver were the two distributees of the property. 
They had children. One of them was Lucille Lucero. Another one 
was Eleanor Oliver. Eleanor Oliver is the grandmother of my 
client.
    Senator Campbell. Eleanor Oliver is, okay, and Lucille 
Lucero was the one that deeded the land over to Donnamarie 
Potts.
    Mr. O'Connell. If it would be helpful, I can walk through 
quickly, I think, what the history of this is.
    Senator Campbell. If you have an opening statement, you can 
go ahead and do that, and then walk me through a little bit of 
it, and then I will ask you a few questions.
    Mr. O'Connell. Okay, let us do that.
    Senator Campbell. And your complete written testimony, as 
well as Ms. Pope's, will be included in the record.
    Mr. O'Connell. And we would like to be able to supplement 
it with some of the filings in this case, as well.
    Senator Campbell. Fine; I want every document you have got, 
or a copy of every document you have. If there is anything you 
would like to ready directly from Ms. Pope's statement or 
letter, please feel free to do so, too.
    Mr. O'Connell. Senator, because this matter is under active 
litigation, I will need to limit my discussion of the facts to 
matters in the public record.
    Senator Campbell. All right.

   STATEMENT OF DERRIL JORDAN, ESQUIRE, STETSON LAW OFFICE, 
     ACCOMPANIED BY GEORGE O'CONNELL, O'CONNELL AND STEVENS

    Mr. O'Connell. As you are aware, this dispute is currently 
the subject of an administrative proceeding before the BIA and 
IBIA. So far, Ms. Pope has prevailed in those proceedings.
    I think it is important to stress that this was not some 
midnight secret-type of deal. In fact, with all due respect to 
Ms. Potts, she had ample opportunity to address her factual and 
legal arguments to the BIA in the administrative proceedings, 
and indeed she did.
    Part of what we will supplement the record with are her 
affidavits that she filed with the BIA, before any decision was 
rendered. She had her day in court. She presented her 
arguments, and her lawyer ably represented her.
    No decision recognizing my client, Ms. Pope, as the proper 
person to organize the tribe, and unrecognizing, if you will, 
Ms. Potts, was made until after both sides had a fair 
opportunity to present evidence and an evidentiary record was 
presented.
    So when Ms. Potts says that this came out of the blue and 
nobody ever told her, with all due respect, I am scratching my 
head. Because on the airplane yesterday, flying out here, I was 
reading the affidavit of Donnamarie Potts, submitted to the 
BIA.
    Now the issues currently before the IBIA, and to correct 
slightly one thing, Ms. Potts' brief to the IBIA is due, as we 
understand it, tomorrow. Then we will have the opportunity to 
file an answering brief at the end of October.
    Meanwhile, the U.S. District Court in Sacramento has issued 
a preliminary injunction, which bars Ms. Potts from building 
her casino project on the rancheria's land until the IBIA 
proceedings are complete.
    The District Court issued its injunction, based on its 
conclusion, and I think this is important for you to 
understand, Senator. The District Court reviewed that factual 
and legal record that had been developed in the BIA.
    It determined, in issuing the injunction, that my client, 
Ms. Pope, had a strong likelihood of success on the merits, and 
that she would continue to prevail because she was legally and 
factually correct and entitled to the judgment that had been 
given by the BIA.
    So the District Court has reviewed that and at least issued 
a preliminary injunction, stopping any construction or other 
dissipation of tribal assets. In July, the Ninth Circuit Court 
of Appeals summarily affirmed that District Court ruling.
    So the matter is now pending before the IBIA. Following its 
decision, it may well be appealed again to the District Court, 
but it is important to understand, a court has looked at this, 
too, and has ruled that there was a strong likelihood of 
success on the merits.
    I would like to explain a bit about the nature of the 
dispute over Buena Vista, and how it is different from the 
typical tribal membership and leadership disputes, which this 
committee is familiar.
    In most intra-tribal disputes, there is an established 
tribal constitution, a fairly well defined tribal membership, 
or at least or core of individuals who are indisputably tribal 
members.
    Then the disputes, as you know better than I, usually 
involve competing claims between two or more groups, as to 
which of them can appropriately lead an existing and 
established government, or otherwise take part in the affairs 
of the tribe. In those cases, we think, just as Ms. Potts does, 
that that should be left to the tribes to determine.
    But the dispute over Buena Vista is different. At Buena 
Vista, the question is not whether one individual or another is 
entitled to lead an existing tribal government or enforce an 
existing tribal constitution. The question is whether Buena 
Vista ever had a legitimate tribal government, after it was 
restored in the 1980's.
    As you know, Senator, a number of tribes were terminated in 
California in the 1950's, and Buena Vista was one of them. At 
the time of termination, the two individuals who received the 
tribal land were my clients great grandparents, Louie and Annie 
Oliver. In turn, on their deaths, their heirs received some of 
the lands.
    One of the people who received a portion of the land was 
Lucille Oliver. Another was her brother, Enos Oliver, and 
another person who received a portion of the land was my 
client's father, Jessie Pope.
    Senator Campbell. Let me interrupt you. Was that land 
conveyed by deed, and then the following deeds, whose names 
were on those deeds, after it was conveyed?
    Mr. O'Connell. My understanding, Senator, is that when the 
land was conveyed from the United States, it was conveyed to 
Louie and Annie Oliver. There was a plan of distribution drawn 
up.
    Senator Campbell. Are we talking about the same 67 acres?
    Mr. O'Connell. The same 67 acres were conveyed by the 
United States in, I believe, 1958, to Louie and Annie Oliver.
    Senator Campbell. Okay, so it is their land and they can do 
what they want with it, right?
    Mr. O'Connell. It is their land in fee.
    Senator Campbell. Private and fee, and they can leave it to 
anybody they want?
    Mr. O'Connell. They can leave it to anybody they want, when 
they died; and I apologize, I do not recall whether they 
transferred the land on their deaths by will or it was 
intestate. But in event, the land was transferred to Lucille 
Lucero.
    Senator Campbell. Okay, so her name is on the deed now.
    Mr. O'Connell. Right, and then two other people.
    Senator Campbell. Two other people?
    Mr. O'Connell. Enos Oliver, who was her brother, and Jessie 
Pope.
    Senator Campbell. Okay, I see.
    Mr. O'Connell. Jessie Pope was Eleanor Oliver's son.
    Senator Campbell. So you are saying, in effect, then that 
when Ms. Lucero deeded the land to Donnamarie Potts, that she 
did not have the legal right to do that?
    Mr. O'Connell. Now by that point, she did.
    Senator Campbell. What about the other two people that were 
supposed to be on the deed?
    Mr. O'Connell. Mr. Pope, my client's father, in the mid-
1970's, while my client was still a small child, gave his 
interest away, and we are not talking about Indian land now; we 
are talking about private land.
    Senator Campbell. Yes; private land.
    Mr. O'Connell. He gave his interest and signed it over to 
his Aunt Lucille and his Uncle Enos. Then upon Enos' death, his 
son got an interest in the land, which ultimately was purchased 
apparently by Ms. Potts, at some point.
    So. Ms. Lucero, in the 1980's, deeded her private land to 
Ms. Potts, and Ms. Potts subsequently, by purchase----
    Senator Campbell. Yes; let me ask you something right in 
there. If I am a little boy, and my father deeds the land that 
he owns over to something, because his name is on that deed, 
and he gives it to somebody else, whoever; and I am 10 years 
old, and I am not an attorney so I am asking this, can I come 
back later and dispute that deed?
    Mr. O'Connell. The short answer is, probably not. But what 
your father cannot do is sign over your heritage, as a Native 
American.
    Senator Campbell. But with ownership of the land, if you 
are a little kid, and you grow up and your dad gave the land to 
somebody else, you have no legal recourse? It was his land. He 
was on the deed, and he could do what he wanted with it.
    Mr. O'Connell. As to that land, I would agree with you, 
Senator.
    Senator Campbell. But the 67 acres, is that not the kind of 
thing we are talking about?
    Mr. O'Connell. It is, but that is why I would like to, if I 
could, explain a little bit about this case.
    Senator Campbell. Yes; please.
    Mr. O'Connell. After the Tillie Hardwick case was decided, 
the BIA had to organize or help in the organization of 17 
tribes. As you pointed out, Senator, there were a lot of people 
with competing interests and competing desires, when that 
happened.
    What the BIA did, and what it has historically done since 
the mid-1980's, is the following. In any restored tribes in 
California that is one of the so-called Tillie Hardwick tribes, 
if there was no pre-termination constitution or governing 
document, and there was none here, the BIA has said that the 
following group of people can participate in the organization 
of the tribe: Distributes, and that would have been Louie and 
Annie Oliver; their dependents, meaning the minor children; or 
their lineal descendants.
    Now in this case, there were two lineal descendants alive 
in the early 1990's. There is Lucille Lucero and there was my 
client, Rhonda Pope.
    My client, Rhonda Pope, had gone to the BIA in 1992, before 
any constitution was adopted or the tribe was organized, and 
she had said she wanted to visit her father's grave, because 
her father, in fact, is buried at Buena Vista.
    Senator Campbell. When she went to the Bureau, did she do 
that in writing? Is there some documentation about that?
    Mr. O'Connell. There is not writing at that time. She went 
to the Bureau, because at that point, she was trying to connect 
with her heritage, and she wanted to visit her father's grave 
site.
    Senator Campbell. For the record, there is no document on 
that.
    Mr. O'Connell. There is nothing in writing.
    Senator Campbell. All right.
    Mr. O'Connell. She was referred to Lucille Lucero. Because 
at that point, Buena Vista had not been organized or 
reorganized, following its restoration. When she went to Ms. 
Lucero, she identified herself. Ms. Lucero was not friendly. 
She was her great aunt, but she was not friendly.
    Senator Campbell. Had she ever met Ms. Lucero before that 
time?
    Mr. O'Connell. Senator, I believe that when she was a small 
child, she visited the land. But she was a very small child 
when her father died. She was about 4 or 5 years old on her 
father's death.
    So she remembers visiting the land. She has a recollection 
of her great grandmother. I do not think that she could say, 
one way or another, whether she had ever met Ms. Lucero, at 
that point.
    Senator Campbell. Okay.
    Mr. O'Connell. In any event, Ms. Lucero referred her to 
Donnamarie Potts, and told her she would have to call Ms. Potts 
if she wanted to visit. So she did, and did not get an answer.
    Senator Campbell. Do you know what year that was?
    Mr. O'Connell. 1992/1993.
    Senator Campbell. So that was before they formed the roll 
and the constitution?
    Mr. O'Connell. That is correct.
    Senator Campbell. Okay.
    Mr. O'Connell. And in papers that have been filed with the 
U.S. District Court, Ms. Potts has acknowledged, and she 
initially said in a filing with the BIA that Ms. Pope had never 
contacted anybody until the year 2000.
    In District Court, she changed her story. She said, in 
fact, she was aware from Lucille Lucero that Ms. Pope had 
contacted Ms. Lucero, and that Ms. Pope had said she was the 
daughter of Jessie Pope; and that she and Ms. Lucero had 
decided that she really was not the daughter of Jessie Pope, 
even though not only her birth certificate, but Social Security 
Administration documents, court orders of support and the like, 
all establish her as the daughter of Jessie Pope.
    So the two of them decided in 1994 that they were not going 
to tell Ms. Pope what they were doing, and they were not going 
to tell the BIA about Ms. Pope's existence.
    So before the constitution was written and purported to be 
adopted, one of the two lineal descendants of the Olivers, my 
client, was there, was known to Ms. Potts and Ms. Lucero, and 
was not given any notification that they were purporting to 
organize the tribe.
    Senator Campbell. Your client, meaning Ms. Pope?
    Mr. O'Connell. Ms. Pope.
    Senator Campbell. You said she was known to Ms. Potts. Ms. 
Potts said she never saw her before and does not know what she 
looks like, even today.
    Mr. O'Connell. She knew of her existence, because Ms. Potts 
has filed a declaration with the District Court in the 
underlying case, acknowledging that she was aware that Ms. Pope 
had come out to the property, had spoken to Lucille Lucero, and 
that Lucille Lucero took the position that Ms. Pope was not, in 
fact, a child of Jessie Pope, and had no right to have anything 
to do with Buena Vista.
    Senator Campbell. So at a later date, after the roll was 
done and accepted by the Bureau, did Ms. Pope seek to join the 
membership of the Buena Vista Me-Wuks at that time?
    Mr. O'Connell. No; Ms. Pope, at that time, when she found 
out, in 1999, that a constitution had been adopted without her 
participation.
    Senator Campbell. This is 4 or 5 years after it was 
adopted?
    Mr. O'Connell. This is 4 or 5 years after it was adopted.
    Senator Campbell. How could she not find out in that amount 
of time?
    Mr. O'Connell. Senator, you need to understand, and I heard 
Ms. Potts say that this is a tribe with 12 members. That may 
have been the original roll. There are three living members of 
the tribe: Ms. Potts and her two children.
    Ms. Pope was visiting with various people who are Me-Wuk in 
the area, but who are not part of Buena Vista. Ms. Pope 
attempted, on a number of occasions by telephone, to contact 
Ms. Potts, and never received a response. It was not until 1999 
into 2000 that she learned that a constitution had been 
adopted.
    Senator Campbell. Just for the record, do you have any 
verification of her trying to contact Ms. Potts or the tribe 
during that time or was it strictly verbal?
    Mr. O'Connell. It was her words, Senator, that she did in 
her affidavit.
    Senator Campbell. Okay.
    Mr. O'Connell. Ms. Pope was entitled, under the BIA's 
consistent practice, in organizing Tillie Hardwick tribes to 
have been part of that original organization. She was not. She 
began, at that point, to do a number of things. She submitted 
her own constitution to the BIA.
    Senator Campbell. That was about what time?
    Mr. O'Connell. 2000.
    Senator Campbell. 2000?
    Mr. O'Connell. Before that had been done, again, by May 
2000, she had submitted to the BIA evidence that she was Jessie 
Pope's child.
    Senator Campbell. All right.
    Mr. O'Connell. In fact, one of the things that we would 
like to submit to this committee, in supplementation of the 
record, is a letter to Ms. Potts, from the BIA, in May 2000, in 
which the BIA says to Ms. Potts, in substance, and I do not 
have the letter in front of me, but we will provide it, Rhonda 
Pope has come to us and convinced us that she is a lineal 
descendent.
    Under the way in which Buena Vista was supposed to be 
organized, lineal descendants are the ones who are supposed to 
be tribal members and so on. In substance, the letter asked, 
would you supply us with information about yourself and about 
your two children, and show that you are lineal descendants? As 
far as we know, Ms. Potts never responded to that letter.
    Following that, my client submitted a proposed constitution 
to the BIA, along with evidence of her lineage, and there were 
proceedings before the BIA, with both the superintendent and 
the regional director, which resulted, as I said before, in the 
filing of affidavits, evidence, and so on.
    The evidence, Senator, is that my client, as she has said, 
is Jessie Pope's daughter. The evidence further shows, and the 
conclusion of the BIA is, that Donnamarie Potts is not a lineal 
descent of the Olivers.
    Senator Campbell. I have lost my notes somewhere here. I do 
not even know where I was, I am getting so much information. 
But there was some question, I understood, in the Bureau of 
whether they had to be lineal descendants or not.
    If the tribe submitted all their information, then the 
tribe decided if they were lineal descendants or not. But if 
they accept them and they were not lineal descendants, they 
were still members of the tribe. Is that your reading of the 
law, too?
    Mr. O'Connell. It is not my reading of it, Senator. There 
has been a dispute. I think the case was mentioned involving 
Cloverdale, which is another Tillie Hardwick tribe. In that 
case, there was a dispute. A gentleman had actually organized a 
tribe over in Cloverdale, and then there was a later challenge.
    The BIA concluded, during the course of that challenge, 
that a fellow named Jeffrey Allen Wilson, who had formed a 
tribal government was, in fact, not a lineal descendent of the 
original distributees, and as a consequence, could not have 
formed a legitimate government.
    In that case, the BIA, on reviewing it said, well, that is 
a reasonable approach. It is a reasonable approach on Tillie 
Hardwick to say that the people who can participate in the 
reorganization of the tribe after it has been restored are 
distributees, their minor children, dependents, or lineal 
descendants.
    But we want to know if the BIA has consistently followed 
that practice with the Tillie Hardwick tribes. The BIA came 
back in and it said, yes, we have, and demonstrated to the BIA 
that that was the consistent practice it followed. It furnished 
that report to the BIA.
    Now that matter was actually taken up and challenged and 
appealed in the District Court, and was upheld. The record, we 
believe, both from that case and in this case, is that the BIA 
consistently has taken the position that if the distributees 
are no longer around, then the people who are entitled to form 
the Government in the first place are the lineal descendants. 
In this case, it was Ms. Pope and Lucille Lucero. But Ms. Pope 
was not part of it in 1994.
    Senator Campbell. I understand. You know, I lived out there 
for years and years. I knew a lot of Me-Wuks; probably 100 or 
more of the different bands. I used to go to the Acorn 
Festivals with them. I used to participate in some of the 
things, watching them. I used to watch them with their dances, 
using what is called a yellow hammer, their feathers that they 
made their outfits out of.
    I knew the older folks, my age and older, and even older 
than me, the Potts family. I knew the Taylors. I knew the 
Franklins. I knew a lot of them. They were really good friends. 
I taught school. I taught their kids in school. I knew them.
    They were a loving people, very inclusionary people, you 
know, a sharing people, a very traditional people, and boy, 
have times changed. I cannot help to think that one of the big 
changes is because of the new opportunities of money, of gaming 
and making money.
    So let me ask you, first, has Ms. Pope entered into any 
kind of agreement with anybody to develop that land, or to 
build something, as Ms. Potts has?
    Mr. O'Connell. Senator, anything my client has told me 
about that would have to be privileged.
    Senator Campbell. Well, I take that to mean, she probably 
did.
    Mr. O'Connell. Senator, I can tell you this, and it is 
honest and sincere, and she would love to look you in the eye 
and tell you this. It is her absolute desire that that land not 
be developed. She would not forego for the future development 
opportunities that could be pursued elsewhere.
    But she absolutely wants, if it is humanly possible, to 
maintain that land, these 67 acres, where father and her 
grandfather, great grandfather and grandmother are buried, 
undeveloped and in the state it is in now.
    But Senator, there is something in terms of the status of 
the land. I do not believe this land has been accepted into 
trust by the United States. I believe that Ms. Potts deeded it 
over. So the deed, as it sits there now, if you were to go to 
Amadore County and run the deed, I believe that it is deeded in 
the name of----
    Senator Campbell. Well, can I interrupt you there? Aurene 
Martin from the Bureau is still here. Could you tell us that, 
if that land has been taken into trust?
    Ms. Martin. I am not entirely sure that the transaction has 
been completed.
    Senator Campbell. Has an application been made or anything; 
do you know at all?
    Ms. Martin. My understanding is that it has.
    Senator Campbell. Okay, Aurene, could you provide the 
committee with at least an update of where that is, if you 
would?
    Well, your client may say she is not interested in it, and 
I do not question her integrity. If she is not, I will accept 
that.
    But let me tell you, I was raised up by the little town of 
Auburn. There is a band of Me-Wuks there. They live on what is 
called Indian Hill Road. When I was a boy, I went to school 
with all of them in high school.
    I remember some years ago, when the question first came up 
about reinstating some of the California tribes, and some of 
the people that I knew, when I was young, they came back to see 
me, because I was on the House side then.
    They said, gee, we want to get reinstated as a federally-
recognized tribe. I was teasing with them a little bit, and I 
said, oh, you want to build a casino, huh? It was after the 
1988 IGRA Act.
    They said, no, no, we do not want to do that. We just want 
to keep this land in perpetuity for historical, traditional 
purposes. I call it ``waiving the feathers.'' That is what we 
want to do.
    Well, right now, there is a big disagreement about who is 
going to control the casino on that very same land that I 
helped get them reinstated as tribal lands.
    So your client, I do not question her motives or anything, 
but I can tell you that casino money has driven a lot of these 
cousin-to-cousin bitter feuds.
    Mr. O'Connell. Senator, I think that is right, and I want 
to make myself clear. I am not saying that my client, as 
anybody in her position, would not want to pursue development.
    Senator Campbell. If people get offered an opportunity to 
better their lives, you cannot blame them, very frankly. I am 
not condemning anybody that does that. I mean, I understand 
what it is like to be poor. I was poor.
    Mr. O'Connell. She would like to pursue development. But 
she also would like to be able to do it, if it is possible, by 
leaving this land the way it is, and seeing if development can 
be pursued elsewhere.
    Senator Campbell. Well, let us pursue that, maybe, in my 
last question or two. What does Ms. Pope want? What does she 
want in the near future, and what does she want in the long 
run, from this whole fight that is going on? Does she want to 
pretty much disenfranchise Ms. Potts?
    Mr. O'Connell. Ms. Pope would like to be recognized for 
what she is, a lineal descendent. She would like to organize 
this tribe.
    Senator Campbell. So she does not want to be a part of this 
one that was recognized once? She wants to form another tribe?
    Mr. O'Connell. I am afraid that there is bitterness on both 
sides.
    Senator Campbell. All right.
    Mr. O'Connell. And I do not know that the solution here is 
to have these two people live together. She believes, Ms. Pope, 
that she represents the heritage of the Oliver family, and that 
she is the person who should organize the tribe and lead it.
    Senator Campbell. Ms. Potts seems to have an equally strong 
case. It would seem to me that you, as an attorney, you ought 
to sit down and see if there could not be something worked out 
to calm the waters a little bit.
    With only 12 members, holy smoke, I mean, that is not a 
very big tribe, and if Ms. Pope wins this debate, and she forms 
another tribe, I will bet it will still be the same. It may be 
12 different people or it may be the same people, but it will 
be about the same number in that band.
    And if their long-range goal is to develop it or to do 
something that would make it better for all of the members, I 
have no problem with it at all.
    I encourage that, in fact, whether it is to build a factory 
or a casino or whatever. I mean, when you are talking about 
elders and kids and so on, who are desperately in need of the 
help that comes from economic development, I really do 
encourage that. But with a group that small, golly, I just 
cannot help but think there has got to be some way to get a 
dialog going.
    Mr. O'Connell. Senator, we have always been open to 
discussion, and we are still open to discussion.
    Senator Campbell. Have you met with Ms. Potts' attorneys at 
all, in trying to open up an avenue, a dialog?
    Mr. O'Connell. Senator, I respect Mr. Peebles. Both of us 
have agreed to respect confidentiality. I can say, there has 
been a meeting. More than that, I really feel that I am 
obligated by my pledge to Mr. Peebles not to reveal.
    Senator Campbell. Well, you do not need to reveal anything. 
I understand that client/attorney relationship. But I would, 
just from my own standpoint, encourage you to sit down and see 
if something could be worked out.
    Because as I understand this, I mean, if it goes the 
distance, the Bureau is not going to find, I do not think, 
anyway, for some equal inclusion of both sides of this debate. 
It would seem to me, that is up to the principals. That means 
that somewhere along the line, Ms. Potts is going to be a 
loser, or Ms. Pope is going to be the loser.
    I mean, I have tracked casinos and I have tracked 
development for Indian tribes. With groups that small, if they 
are anywhere near a metropolitan area, hey, there is plenty of 
opportunity to go around with a group that small. I have seen 
it over and over.
    I would just encourage you to try to sit down, first of 
all, and see if you could not work something out, at least 
attorney to attorney, with something. Then if you can get the 
principals involved, then hopefully there would be some way to 
get over some of the bad blood, and discuss things, and find an 
equitable solution for everybody, it would seem to me.
    Mr. O'Connell. I mean this sincerely, I will take that, not 
only myself seriously, but I will convey your thoughts, which I 
think are good ones, to my client.
    Senator Campbell. Well, I appreciate it, and since Ms. 
Potts and her attorney are here, I would encourage them to do 
the same; to find a time when at least you can sit down and see 
if there is an avenue that you can move something along.
    Mr. O'Connell. I will, Senator.
    Senator Campbell. Well, with that, I appreciate everyone 
who has come to testify before committee, and I would hope that 
you would, in the case of Ms. Pope's attorney, give my best to 
Kate Stetson, who is a good friend.
    Mr. O'Connell. I will, Senator.
    Senator Campbell. And in the case of Ms. Potts' family, 
give my best to those people who I have known for years in the 
foothills of California.
    The record will stay open for 3 weeks, to you, to the 
attorneys, to Ms. Potts, to Ms. Pope, and to any person who 
wants to comment on this, or in fact, any other tribe that 
would like to submit some kind of material related to this case 
or broader issues related to intra-tribal disputes.
    Because I tell you what, I do not like being a referee in 
things like this, when I know people of goodwill, they can get 
so much done without the Government messing it up.
    Mr. O'Connell. I agree with you on that, Senator, and thank 
you for your time and consideration.
    Senator Campbell. And in that 3 weeks, if you or Ms. Potts' 
attorney, if you could just kind of keep me informed, if you 
are talking or doing anything to try to open up a dialog, I 
would appreciate, and I know Chairman Inouye would, too.
    Mr. O'Connell. We will do that, sir.
    Senator Campbell. Thank you, this committee is adjourned.
    Mr. O'Connell. Thank you.
    [Whereupon, at 11:42 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Wayne Shaw, Acting Interim Chairman of the 
           General Council of the Seminole Nation of Oklahoma

    Chairman Inouye, Vice Chairman Campbell, and members of the 
committee:
    My name is Wayne Shaw. I am the acting tribal chairman of the 
General Council of the Seminole Nation of Oklahoma, and a member of 
the----band of that tribe. For----years I have served my nation in 
public service as band chief, tribal gaming commissioner, youth 
athletics organizer, and general council representative.
    [ETC.]
    Your hearings today concern the issue of [intra-tribal disputes.] 
With your permission, I respectfully submit by the following testimony 
an account of the recent experiences of the Seminole Nation of Oklahoma 
in regards thereto.
    The Seminoles of Oklahoma have a long, proud history. It goes back 
before the Americans, back before the British, back even before the 
Spanish and the jurisdiction they called La Florida. Seminole history 
tells us who we are, what to honor, and what to defend. It gives us our 
traditions and our customs, and our form of government. It transmits to 
us our bands and clans, and the matrilineal rules of belonging. And it 
establishes our General Council and the offices of principal chief and 
vice chief.
    That's Seminole history, and that's who I am. I didn't learn that 
history from books, essays or articles, or from white men or from 
government records. I learned it at the feet of my elders, who learned 
in the same way from their elders. For us, the Seminole people, as for 
many native peoples, history is not something lost behind us. It is 
here in our present, and guides us toward our future.
    Let me now tell you something about our contemporary history, which 
speaks to the topic before you today.
    The Seminole Nation has finally emerged, thanks to the decision in 
Seminole Nation v. Norton II, delivered 3 days ago, from over 1 year of 
turmoil, uncertainty, and sorrow brought on by what the large majority 
of Seminoles consider to have been the unnecessary, small-minded and 
vindictive intrusion of the Bureau of Indian Affairs into our internal 
affairs. This uncompromising and deplorable interference has led 
directly to documented violence, the exposure of members of our 
community to greater risks to health and well-being, and the 
jeopardizing of our students' future educations.
    This sad episode in an already tragic history of Seminole-United 
States relations began in the Nation's attempts 2 years ago to amend 
its Constitution and the criteria for tribal membership. Our goal was 
to exclude from tribal membership all persons who could not show lineal 
blood descent in any of the traditional Seminole clans or bands in 
accordance with our traditional, customary laws.
    Much has been made of these amendments /'96 in the courts, in the 
press, and in the offices of the Federal Government /'96 and of the 
supposedly ``racist'' Seminoles who enacted them. The fact remains that 
under the Nation's laws any person who can show matrilineal descent 
through a traditional band /'96 regardless of any other native or 
ethnic heritage which that person may proudly share /'96 is to be 
considered a Seminole Indian and a member of the Seminole Nation of 
Oklahoma.
    It's true that the amendments would have removed from the Nation's 
General Council the representatives of the Freedmen, African-American 
descendants of ex-slaves. That fact, however, goes not to the supposed 
racism of the Seminoles, but to the sad and miserable /'96 not to say 
denied /'96 history of the United States' own race relations with 
Indians and with Blacks.
    In enacting the amendments in August 2000, the Seminole people 
sought to reassert their traditional ways and forms of government. 
This, we believe, is the nation's right as a federally recognized 
native sovereign, and is a right guaranteed to the tribe by the treaty 
of 1866. No law has ever been enacted nor treaty signed that requires 
the Seminoles to recognize or accept new or non-traditional bands into 
its legislative assembly. Where it was done, it was done at the 
sufferance of the Seminole people, acting as sovereigns. In the same 
way it was withdrawn.
    For protecting our traditions and attempting to preserve our 
heritage we are attacked as racist. Yet we did not create the 
circumstances that prompted us to act. Nor have we been alone in acting 
as we did. Yet only we have been made examples of and forced to suffer 
the consequences of the BIA's disapproval of our traditional ways.
    Immediately after the Civil War, the United States ``negotiated'' 
new treaties with each of the so-called Five Civilized Tribes. Each 
treaty contained similar provisions for the settlement of Freedmen 
among them. The ostensible reason for the settlement was, as the 
treaties indicate, the failure of the United States to provide civil 
rights for the newly freed slaves and freedmen. Over the ensuing years, 
each of the other Five Tribes removed the Freedmen from their tribes. 
What has distinguished the Seminoles, the last of the Five Civilized 
Tribes to attempt to confine their Council to traditional tribal 
members, has been the response of the United States to their attempt.
    Immediately after their ratification and adoption, our 
constitutional amendments were disapproved by the BIA. We challenged 
that disapproval in court, as is our right. While the decision was 
pending, the Nation conducted its 4-yearly general elections in July 
2001. The elections were conducted according to the unamended and 
unchallenged provisions of the nation's federally approved 
Constitution. The results were clear, decisive, and most importantly 
for the honorable members of this Committee, they were unchallenged by 
anyone. Later that summer, the new officers-elect of the Nation were 
sworn in, and the new Seminole government set about the business of the 
Nation.
    In early October 2001 an opinion in Seminole v. Norton I issued, 
holding that the membership amendments were unlawfully adopted and 
therefore without effect. We respectfully disagreed with the court's 
reasoning and holding and immediately appealed.
    In the meantime the nation's general council nevertheless took 
action in accordance with the court's opinion pending the outcome of 
its appeal. The council passed a resolution formally noting the 
continuing and integral presence of the Freedmen bands on the general 
council, notifying the Freedmen band representatives by hand of the 
same, and requesting the honor of their presence in the deliberations 
and actions of the general council. That, we thought, should have been 
that, at least until the outcome of the appeal (which, by the way, was 
ultimately denied on the grounds that the decision was non-final, and 
hence not appealable).
    It turns out that for the BIA, it was only the beginning.
    It's not given to us mortals to know the thoughts of bureaucrats; 
but that way lies madness. The BIA, perhaps still smarting from the 
Seminole's challenge to its authority, seized upon Seminole Nation v. 
Norton I as a whip with which to punish the nation. Where there had 
been only a satisfied electorate, the BIA stepped in to create 
``warring factions''; where there had been only one sore loser, the BIA 
created an ``intra-tribal dispute'' by denying the existence of the 
nation's government and instead choosing to recognize only a former 
chief. Not content with that mischief, the local agency superintendent 
advised the Freedmen to ignore the actions of the General Council and 
stay away from its meetings.
    Having invented fictional factions and bogus intra-tribal disputes, 
the BIA next informed my no-longer recognized government that if the 
nation wanted to continue to receive its Federal funds, and if it 
wished to maintain government-to-government relations with the United 
States, it would have to re-install a former chief (a man resoundingly 
and incurably voted out of office) and immediately conduct new general 
elections. It offered no advice, though, on how to do so in conformity 
with the provisions of our federally approved/constitution.
    Needless to say, the Seminole people, pending the outcome of the 
appeal of Seminole Nation v. Norton I, refused. In the meantime, 
however, the newly recognized former chief, backed by the resources and 
support of the BIA and its staff, traveled around Seminole County 
trying his best to sow seeds of confusion. He did a pretty good job. He 
threatened anyone doing business with the nation, he issued ``executive 
orders'' hiring staff, firing directors, and taking over assets; and he 
publicly attacked the Seminole government and its people at meetings in 
which he was joined on the podium by officials of the BIA and the 
National Indian Gaming Commission, all while the nation's appeal of the 
court decision was pending. With the tacit approval of the BIA, he even 
went to Federal court seeking to have the Seminole government turned 
out of office, an effort quickly dismissed.
    Despite this, the nation continued to work diligently and in good 
faith through its attorneys with the Department of Justice and the BIA 
to try and resolve what was, at best, an inter-government dispute. The 
road was steep and the attitude of the BIA, if not hostile, was at best 
indifferent.
    The Bureau's initial actions suggested to us that they weren't 
interested in our laws or our constitution. That suspicion was 
confirmed at our negotiation meetings with them. At one conference at 
the Wewoka Agency offices, literally across the road from Seminole 
Tribal Headquarters, the Regional Director assigned to mediate said 
he'd never seen a copy of the Seminole Constitution, much less read it. 
We then discovered that the Wewoka Agency office didn't even have a 
copy. The Director asked if we would get him a copy.
    Six months later, at another settlement conference, this time in 
Oklahoma City, the Deputy Assistant Secretary of the Interior, who'd 
flown in especially for the meeting, confessed she hadn't read the 
Seminole Constitution, didn't have a copy, and didn't know its 
provisions; nor was she familiar with the Seminole government's 
structure. She asked if we would get her a copy as soon as the meeting 
was finished.
    Members of the committee, the Seminoles are not a large tribe, and 
were not a wealthy one, either. Our home is one of the poorest counties 
in Oklahoma, which is itself one of the poorer States in the Union. But 
recent years have brought us a measurable, if modest, amount of success 
from gaming and other businesses. Last year alone we grew to become the 
largest employer in Seminole County, moving ahead of the Wrangler Jeans 
Company. As well as jobs, these businesses provided revenues that went 
into the nation's treasury, where they allowed us to provide much 
needed services to our people and resources for their problems in ways 
we couldn't do before. But that is all gone now.
    Events of last May scared off our gaming customers, and chased away 
many current and at least one prospective business partners. That was 
when a BIA judge issued a series of ex parte orders, each more 
outrageous than the previous, shutting down the nation and turning over 
control of the nation, its assets and its property to the BIA's 
anointed leader. Men /'96 many of them non-Seminoles /'96 with 
automatic weapons and military fatigues appeared at our government 
offices and our gaming facilities, demanding entry. Our General Council 
House seized and vandalized. Records from the nation's Business and 
Regulatory Commission were taken, and others destroyed. One member of 
the General Council was attacked and hospitalized, another arrested. 
Yet the Seminole people did not rise to the bait, but stood firm on 
their rights under law.
    The BIA court orders, issued with the full knowledge and tacit 
approval of the Bureau itself, went so far beyond the pale of judicial 
responsibility that an appellate panel met in emergency session and 
quickly overturned them. But by then the damage to the nation, its 
businesses, and their reputation, was done.
    Thanks to the BIA's policy of bad faith negotiations, of cutting 
off of Federal funds for essential services on the pretext of upholding 
their ``solemn'' trust responsibilities (the solemnity of which has 
certainly been called into question by the Secretary of the Interior 
herself), the nation's gaming operations have suffered, perhaps 
irreparably. Employees have now been laid off, staff hours reduced, and 
revenues to the nation's treasury have dwindled.
    Some Seminoles have asked whether what has befallen them really has 
anything to do with the Freedmen at all, or whether it's really just a 
big game /'96 maybe of skill, maybe of chance /'96 played by folks in 
Washington and Oklahoma City, folks with the desire to win at any cost. 
But I'm sure the better informed among you can judge as to that.
    As for myself, like I said at the beginning, I'm sort of a 
historian. All Seminoles are. Long after this committee adjourns, after 
this Senate's term expires, and this administration leaves office, the 
Seminoles will still be here making their own history. We survived the 
Spanish, the British, the Seminole Wars, and removal. We'll survive the 
New York Times, the Chicago Tribune, and all the other authorities on 
Seminole ways. We'll most certainly survive the Bureau of Indian 
Affairs, those makers of factions and ridiculers of ``solemn trust.'' 
This will be true of all Indian peoples faced with the consequences of 
intra-tribal disputes which are, in reality, the product not of their 
own internal politics, but those of outsiders who continue to attempt 
to use the tribes as a vehicle for their own desires.
    The issue for this committee, and the Government it represents, is 
what kind of a history you will leave behind for your people, and 
whether you will finally allow the Seminoles the honor of their own 
history.
    I thank you all for having permitted me to present you with these 
views.
                                 ______
                                 

      Prepared Statement of Donnamarie Potts, Chairwoman, Ione, CA

    Mr. Chairman, Mr. Vice Chairman, thank you for the opportunity to 
appear before this committee on a matter of great importance to the 
future of my tribe and my family. I have a number of documents I would 
like to submit for the record, but would like to take my allotted time 
here to tell you our story.
    Like most California reservations, Buena Vista was created in the 
1920's as a refuge for homeless Indians who were the survivors of the 
genocide brought upon us by first the Spanish and then the gold miners. 
While the origins of the Me-Wuk Indian People of the Buena Vista 
Rancheria go back to the late 1800's, 'in the interest of time I will 
start with more recent events.
    In 1994, with the assistance of the Sacramento Office of the Bureau 
of Indian Affairs, my late aunt, Lucille Lucero, completed and adopted 
a tribal constitution. This constitution named myself and my children 
as Historical Members of the tribe. We have with us today photographs 
of the signing ceremony at the BIA office. My Elder and I worked over 
10 years with no funds to assist us to reach this point.
    In the early 1980's, my Elders had deeded the majority of the Buena 
Vista land ownership to my name as the one chosen to carry on the 
tribe's heritage. By early 1996, I had bought the remaining rights to 
the last small part of our 67 acres on the Rancheria with my own funds, 
earned by working in the local fields. To ensure this would remain a 
home for my people, I decided to donate that land to the tribe. Before 
doing so, I asked the BIA for confirmation of our constitution and my 
family's membership in the tribe. As you can see from his response, 
Superintendent Harold Bradford clearly states that I am a member of the 
tribe. In addition, he declares the constitution enacted by my aunt to 
be valid.
    This is only one example of confirmation from the BIA. I have over 
30 examples over the years of similar evidence of a government-to-
government relationship between the Rancheria and the Federal 
Government, including participation in Self-Governance and other 
Federal programs available only to recognized tribes. To this day, I 
continue to receive weekly documents from the BIA showing our ongoing 
recognition and participation in programs.
    Relying on that 1996 letter, I deeded all of my land to the tribe, 
hired tribal employees, and began exploring opportunities for economic 
development and other projects to benefit not only our tribe, but all 
Indian people in the areas. I consider this to be a right created from 
my property under Federal Indian law.
    As you can understand, I was shocked and terrified in December of 
last year to receive a letter from that same BIA office informing me 
that the Federal Government no longer considered me and my family 
members of the Rancheria. They also now say that the constitution they 
assisted with and approved and then affirmed is no longer valid. As you 
will see in the materials I have submitted, this decision contradicts 
the legislation and Federal court ruling that established and 
reinstated this tribe. It also arbitrarily reverses nearly a decade of 
a government-to-government relationship.
    Simply put:
    The Government told us we were a tribe. The Government assisted in 
preparation and approved our constitution. The Government recognized us 
as historic members as we were designated by our Elders. The Government 
recognized me as the tribe's selected leader. The Government, over and 
over again, told us our constitution was valid and provided Tribal 
Self-Governance funds.
    Then, in a secretive, closed-door process, that same agency of the 
Government told us none of that had ever existed. There was no hearing. 
No opportunity to confront any accuser or decisionmaker. No opportunity 
to challenge documents that were fraudulently used against me.
    This is nothing less than termination. The Federal Government once 
again terminated my tribe. And, in doing so, they took my land and my 
family's heritage.
    This proclamation was made despite the fact that each of these 
historical members were recognized in the tribe's constitution, a 
constitution prepared and executed in 1994 with the Superintendent and 
other BIA personnel in the BIA's Sacramento offices, and despite the 
fact that the BIA has affirmed its recognition of the tribe's 
constitution, the tribe's members, and/or the tribe's chairperson over 
30 times over the past 8 years.
    We have appealed this decision to the Interior Board of Indian 
Appeals (the ``IBIA''), but we understand that it may take years for 
IBIA to rule on this case and that the IBIA often merely remands cases 
to the regional officials who made the original decision. Also, while 
Assistant Secretary Neal McCaleb has declined take this appeal in his 
office, it is clear from the regulations that he will eventually have 
to rule on my appeal, as the IBIA is precluded from making any 
membership decisions. In the meantime, my land and the tribe's property 
rights have been taken without due process, the tribe is being 
destroyed and years of work ``by the book'' to achieve economic 
development will be gone forever.
    I have come to this hearing to plead with you for help. As I worry 
daily about the possible extinction of my tribe and my Elders' legacy, 
I use this opportunity for strength and resolve.
    I am encouraged by the interest you have taken to discuss our 
tribe's history and my family. Without this venue, our fate would be 
entirely in the hands of people who do not know or care about the 
history of this tribe and my family, and do not understand the 
importance of our vows to our Elders. The fact that you have taken this 
time out of your busy schedules to listen, gives me the resolve to 
continue in this struggle. We will forever remember this and pass the 
story of this event down to our children.
    It is devastating and frightening to us that the Federal Government 
could take our land, take our tribe's history and its future and strip 
us of our status as Indian people--and then make us wait years for the 
IBIA's version of justice, while the BIA uses economic starvation as a 
weapon to further weaken us. How can they have that power over a 
sovereign nation? Is our sovereignty and very existence so fragile that 
it can be taken away in an instant at the whim of a local agent? It is 
also amazing that the Federal Government could recognize a tribal 
government dozens of time and then, without a formal process, wipe it 
out. Is the era of termination back?
    Since this action was taken, my tribe has suffered in ways I 
thought were a thing of the past. The local BIA office has cutoff our 
Self-Governance funds and has refused to reinstate them, even though 
their own regulations require them to continue such obligations while 
an appeal such as this is pending. As chairperson of the tribe, I have 
no income and have had to lay off all the tribal employees. All 
utilities for the tribal government office--power and telephone have 
been shut off. The tribal government cars and even the small trailer we 
used for our home are being repossessed. Without assistance from our 
friends, we would be helpless.
    As recently as last fall, this was a thriving Indian community with 
the opportunity for a great future ahead of us. We had worked for 
decades doing everything ``by the book,'' following all the 
Government's regulations, to finally be ready to reach economic 
stability. We had established a good working relationship with the 
community and business vendors. Now, everything is gone.
    And why? Because I, the leader of a sovereign nation, dared to 
explore financial opportunities available under Federal law that might 
create competition or jealousy? It is just my small tribe against many 
others. Without this opportunity to tell our story, we would be 
overwhelmed.
    I would like to briefly address two issues I have seen raised in 
the news media. The first is the debate over tribes, especially in 
California, that some judge to be ``too small.'' Yes, many California 
tribes can be considered small when compared with those in other parts 
of the country. That is a result of waves of European invasion, first 
the Spanish and then others looking for gold. The newcomers killed my 
ancestors, moved them around and broke them up. In the 1920's the 
California Rancherias were created by Congress for the benefit of the 
remaining Indians living without land. The situation we live in today 
is not our doing. It is the doing of the Federal Government.
    Second, I am sure many in this room see this dispute as just being 
about gaming. I must point out that the Secretary of the Interior 
herself, in an interview with Indian Country today earlier this month, 
has stated that gaming should not be considered when looking at tribal 
governance issues. I quote: ``The decisionmaking process on recognition 
is one that ought to be objective and not depend on what the motivation 
is for the people that are seeking approval.'' Secretary Norton is 
talking about new recognition of tribes. I am talking about the 
termination of mine.
    Senator Campbell has often said that Indians are the only people in 
this country that need a card proving their heritage. Although 
humiliating, I got such a ``card'' from the Sacramento BIA many decades 
ago. The Federal Government has now taken that away, along with my 
land, my status as a tribal leader and our chance to better the lives 
of many Indians in the Sacramento area. I now live in fear that all we 
have believed in and worked for, and all that we promised our Elders, 
will be lost forever. I know that you know all of this, but feel I 
should say It here for the benefit of other Members of Congress.
    I am convinced that this hearing will prove we are the proper Me-
Wuk Indian People of the Buena Vista Rancheria, as many know us to be. 
I have been here, on this land, all my life, and cannot imagine that 
this type of arbitrary forced extinction can still occur. Centuries 
ago, our people were able to travel the whole valley in search of game 
and resources. Today, I am merely trying to protect the last 67 acres 
our tribe has left. This hearing, today, is our only hope.
    Thank you, once again, for the opportunity to tell our story. Our 
Elders would want the story of our history told to this committee and 
would want me to fight to the end. This is our last chance to save what 
is left of our history, and our future.

[GRAPHIC] [TIFF OMITTED] T4364.504

[GRAPHIC] [TIFF OMITTED] T4364.505

[GRAPHIC] [TIFF OMITTED] T4364.506

[GRAPHIC] [TIFF OMITTED] T4364.507

[GRAPHIC] [TIFF OMITTED] T4364.508

[GRAPHIC] [TIFF OMITTED] T4364.509

[GRAPHIC] [TIFF OMITTED] T4364.510

[GRAPHIC] [TIFF OMITTED] T4364.511

[GRAPHIC] [TIFF OMITTED] T4364.512

[GRAPHIC] [TIFF OMITTED] T4364.513

[GRAPHIC] [TIFF OMITTED] T4364.514

[GRAPHIC] [TIFF OMITTED] T4364.515

[GRAPHIC] [TIFF OMITTED] T4364.516

[GRAPHIC] [TIFF OMITTED] T4364.517

[GRAPHIC] [TIFF OMITTED] T4364.001

[GRAPHIC] [TIFF OMITTED] T4364.002

[GRAPHIC] [TIFF OMITTED] T4364.003

[GRAPHIC] [TIFF OMITTED] T4364.004

[GRAPHIC] [TIFF OMITTED] T4364.005

[GRAPHIC] [TIFF OMITTED] T4364.006

[GRAPHIC] [TIFF OMITTED] T4364.007

[GRAPHIC] [TIFF OMITTED] T4364.008

[GRAPHIC] [TIFF OMITTED] T4364.009

[GRAPHIC] [TIFF OMITTED] T4364.010

[GRAPHIC] [TIFF OMITTED] T4364.011

[GRAPHIC] [TIFF OMITTED] T4364.012

[GRAPHIC] [TIFF OMITTED] T4364.013

[GRAPHIC] [TIFF OMITTED] T4364.014

[GRAPHIC] [TIFF OMITTED] T4364.015

[GRAPHIC] [TIFF OMITTED] T4364.016

[GRAPHIC] [TIFF OMITTED] T4364.017

[GRAPHIC] [TIFF OMITTED] T4364.018

[GRAPHIC] [TIFF OMITTED] T4364.019

[GRAPHIC] [TIFF OMITTED] T4364.020

[GRAPHIC] [TIFF OMITTED] T4364.021

[GRAPHIC] [TIFF OMITTED] T4364.022

[GRAPHIC] [TIFF OMITTED] T4364.023

[GRAPHIC] [TIFF OMITTED] T4364.024

[GRAPHIC] [TIFF OMITTED] T4364.025

[GRAPHIC] [TIFF OMITTED] T4364.026

[GRAPHIC] [TIFF OMITTED] T4364.027

[GRAPHIC] [TIFF OMITTED] T4364.028

[GRAPHIC] [TIFF OMITTED] T4364.029

[GRAPHIC] [TIFF OMITTED] T4364.030

[GRAPHIC] [TIFF OMITTED] T4364.031

[GRAPHIC] [TIFF OMITTED] T4364.032

[GRAPHIC] [TIFF OMITTED] T4364.033

[GRAPHIC] [TIFF OMITTED] T4364.034

[GRAPHIC] [TIFF OMITTED] T4364.035

[GRAPHIC] [TIFF OMITTED] T4364.036

[GRAPHIC] [TIFF OMITTED] T4364.037

[GRAPHIC] [TIFF OMITTED] T4364.038

[GRAPHIC] [TIFF OMITTED] T4364.039

[GRAPHIC] [TIFF OMITTED] T4364.040

[GRAPHIC] [TIFF OMITTED] T4364.041

[GRAPHIC] [TIFF OMITTED] T4364.042

[GRAPHIC] [TIFF OMITTED] T4364.043

[GRAPHIC] [TIFF OMITTED] T4364.044

[GRAPHIC] [TIFF OMITTED] T4364.045

[GRAPHIC] [TIFF OMITTED] T4364.046

[GRAPHIC] [TIFF OMITTED] T4364.047

[GRAPHIC] [TIFF OMITTED] T4364.048

[GRAPHIC] [TIFF OMITTED] T4364.049

[GRAPHIC] [TIFF OMITTED] T4364.050

[GRAPHIC] [TIFF OMITTED] T4364.051

[GRAPHIC] [TIFF OMITTED] T4364.052

[GRAPHIC] [TIFF OMITTED] T4364.053

[GRAPHIC] [TIFF OMITTED] T4364.054

[GRAPHIC] [TIFF OMITTED] T4364.055

[GRAPHIC] [TIFF OMITTED] T4364.056

[GRAPHIC] [TIFF OMITTED] T4364.057

[GRAPHIC] [TIFF OMITTED] T4364.058

[GRAPHIC] [TIFF OMITTED] T4364.059

[GRAPHIC] [TIFF OMITTED] T4364.060

[GRAPHIC] [TIFF OMITTED] T4364.061

[GRAPHIC] [TIFF OMITTED] T4364.062

[GRAPHIC] [TIFF OMITTED] T4364.063

[GRAPHIC] [TIFF OMITTED] T4364.064

[GRAPHIC] [TIFF OMITTED] T4364.065

[GRAPHIC] [TIFF OMITTED] T4364.066

[GRAPHIC] [TIFF OMITTED] T4364.067

[GRAPHIC] [TIFF OMITTED] T4364.068

[GRAPHIC] [TIFF OMITTED] T4364.069

[GRAPHIC] [TIFF OMITTED] T4364.070

[GRAPHIC] [TIFF OMITTED] T4364.071

[GRAPHIC] [TIFF OMITTED] T4364.072

[GRAPHIC] [TIFF OMITTED] T4364.073

[GRAPHIC] [TIFF OMITTED] T4364.074

[GRAPHIC] [TIFF OMITTED] T4364.075

[GRAPHIC] [TIFF OMITTED] T4364.076

[GRAPHIC] [TIFF OMITTED] T4364.077

[GRAPHIC] [TIFF OMITTED] T4364.078

[GRAPHIC] [TIFF OMITTED] T4364.079

[GRAPHIC] [TIFF OMITTED] T4364.080

[GRAPHIC] [TIFF OMITTED] T4364.081

[GRAPHIC] [TIFF OMITTED] T4364.082

[GRAPHIC] [TIFF OMITTED] T4364.083

[GRAPHIC] [TIFF OMITTED] T4364.084

[GRAPHIC] [TIFF OMITTED] T4364.085

[GRAPHIC] [TIFF OMITTED] T4364.086

[GRAPHIC] [TIFF OMITTED] T4364.087

[GRAPHIC] [TIFF OMITTED] T4364.088

[GRAPHIC] [TIFF OMITTED] T4364.089

[GRAPHIC] [TIFF OMITTED] T4364.090

[GRAPHIC] [TIFF OMITTED] T4364.091

[GRAPHIC] [TIFF OMITTED] T4364.092

[GRAPHIC] [TIFF OMITTED] T4364.093

[GRAPHIC] [TIFF OMITTED] T4364.094

[GRAPHIC] [TIFF OMITTED] T4364.095

[GRAPHIC] [TIFF OMITTED] T4364.096

[GRAPHIC] [TIFF OMITTED] T4364.097

[GRAPHIC] [TIFF OMITTED] T4364.098

[GRAPHIC] [TIFF OMITTED] T4364.099

[GRAPHIC] [TIFF OMITTED] T4364.100

[GRAPHIC] [TIFF OMITTED] T4364.101

[GRAPHIC] [TIFF OMITTED] T4364.102

[GRAPHIC] [TIFF OMITTED] T4364.103

[GRAPHIC] [TIFF OMITTED] T4364.104

[GRAPHIC] [TIFF OMITTED] T4364.105

[GRAPHIC] [TIFF OMITTED] T4364.106

[GRAPHIC] [TIFF OMITTED] T4364.107

[GRAPHIC] [TIFF OMITTED] T4364.108

[GRAPHIC] [TIFF OMITTED] T4364.109

[GRAPHIC] [TIFF OMITTED] T4364.110

[GRAPHIC] [TIFF OMITTED] T4364.111

[GRAPHIC] [TIFF OMITTED] T4364.112

[GRAPHIC] [TIFF OMITTED] T4364.113

[GRAPHIC] [TIFF OMITTED] T4364.114

[GRAPHIC] [TIFF OMITTED] T4364.115

[GRAPHIC] [TIFF OMITTED] T4364.116

[GRAPHIC] [TIFF OMITTED] T4364.117

[GRAPHIC] [TIFF OMITTED] T4364.118

[GRAPHIC] [TIFF OMITTED] T4364.119

[GRAPHIC] [TIFF OMITTED] T4364.120

[GRAPHIC] [TIFF OMITTED] T4364.121

[GRAPHIC] [TIFF OMITTED] T4364.122

[GRAPHIC] [TIFF OMITTED] T4364.123

[GRAPHIC] [TIFF OMITTED] T4364.124

[GRAPHIC] [TIFF OMITTED] T4364.125

[GRAPHIC] [TIFF OMITTED] T4364.126

[GRAPHIC] [TIFF OMITTED] T4364.127

[GRAPHIC] [TIFF OMITTED] T4364.128

[GRAPHIC] [TIFF OMITTED] T4364.129

[GRAPHIC] [TIFF OMITTED] T4364.130

[GRAPHIC] [TIFF OMITTED] T4364.131

[GRAPHIC] [TIFF OMITTED] T4364.132

[GRAPHIC] [TIFF OMITTED] T4364.133

[GRAPHIC] [TIFF OMITTED] T4364.134

[GRAPHIC] [TIFF OMITTED] T4364.135

[GRAPHIC] [TIFF OMITTED] T4364.136

[GRAPHIC] [TIFF OMITTED] T4364.137

[GRAPHIC] [TIFF OMITTED] T4364.138

[GRAPHIC] [TIFF OMITTED] T4364.139

[GRAPHIC] [TIFF OMITTED] T4364.140

[GRAPHIC] [TIFF OMITTED] T4364.141

[GRAPHIC] [TIFF OMITTED] T4364.142

[GRAPHIC] [TIFF OMITTED] T4364.143

[GRAPHIC] [TIFF OMITTED] T4364.144

[GRAPHIC] [TIFF OMITTED] T4364.145

[GRAPHIC] [TIFF OMITTED] T4364.146

[GRAPHIC] [TIFF OMITTED] T4364.147

[GRAPHIC] [TIFF OMITTED] T4364.148

[GRAPHIC] [TIFF OMITTED] T4364.149

[GRAPHIC] [TIFF OMITTED] T4364.150

[GRAPHIC] [TIFF OMITTED] T4364.151

[GRAPHIC] [TIFF OMITTED] T4364.152

[GRAPHIC] [TIFF OMITTED] T4364.153

[GRAPHIC] [TIFF OMITTED] T4364.154

[GRAPHIC] [TIFF OMITTED] T4364.155

[GRAPHIC] [TIFF OMITTED] T4364.156

[GRAPHIC] [TIFF OMITTED] T4364.157

[GRAPHIC] [TIFF OMITTED] T4364.158

[GRAPHIC] [TIFF OMITTED] T4364.159

[GRAPHIC] [TIFF OMITTED] T4364.160

[GRAPHIC] [TIFF OMITTED] T4364.161

[GRAPHIC] [TIFF OMITTED] T4364.162

[GRAPHIC] [TIFF OMITTED] T4364.163

[GRAPHIC] [TIFF OMITTED] T4364.164

[GRAPHIC] [TIFF OMITTED] T4364.165

[GRAPHIC] [TIFF OMITTED] T4364.166

[GRAPHIC] [TIFF OMITTED] T4364.167

[GRAPHIC] [TIFF OMITTED] T4364.168

[GRAPHIC] [TIFF OMITTED] T4364.169

[GRAPHIC] [TIFF OMITTED] T4364.170

[GRAPHIC] [TIFF OMITTED] T4364.171

[GRAPHIC] [TIFF OMITTED] T4364.172

[GRAPHIC] [TIFF OMITTED] T4364.173

[GRAPHIC] [TIFF OMITTED] T4364.174

[GRAPHIC] [TIFF OMITTED] T4364.175

[GRAPHIC] [TIFF OMITTED] T4364.176

[GRAPHIC] [TIFF OMITTED] T4364.177

[GRAPHIC] [TIFF OMITTED] T4364.178

[GRAPHIC] [TIFF OMITTED] T4364.179

[GRAPHIC] [TIFF OMITTED] T4364.180

[GRAPHIC] [TIFF OMITTED] T4364.181

[GRAPHIC] [TIFF OMITTED] T4364.182

[GRAPHIC] [TIFF OMITTED] T4364.183

[GRAPHIC] [TIFF OMITTED] T4364.184

[GRAPHIC] [TIFF OMITTED] T4364.185

[GRAPHIC] [TIFF OMITTED] T4364.186

[GRAPHIC] [TIFF OMITTED] T4364.187

[GRAPHIC] [TIFF OMITTED] T4364.188

[GRAPHIC] [TIFF OMITTED] T4364.189

[GRAPHIC] [TIFF OMITTED] T4364.190

[GRAPHIC] [TIFF OMITTED] T4364.191

[GRAPHIC] [TIFF OMITTED] T4364.192

[GRAPHIC] [TIFF OMITTED] T4364.193

[GRAPHIC] [TIFF OMITTED] T4364.194

[GRAPHIC] [TIFF OMITTED] T4364.195

[GRAPHIC] [TIFF OMITTED] T4364.196

[GRAPHIC] [TIFF OMITTED] T4364.197

[GRAPHIC] [TIFF OMITTED] T4364.198

[GRAPHIC] [TIFF OMITTED] T4364.199

[GRAPHIC] [TIFF OMITTED] T4364.200

[GRAPHIC] [TIFF OMITTED] T4364.201

[GRAPHIC] [TIFF OMITTED] T4364.202

[GRAPHIC] [TIFF OMITTED] T4364.203

[GRAPHIC] [TIFF OMITTED] T4364.204

[GRAPHIC] [TIFF OMITTED] T4364.205

[GRAPHIC] [TIFF OMITTED] T4364.206

[GRAPHIC] [TIFF OMITTED] T4364.207

[GRAPHIC] [TIFF OMITTED] T4364.208

[GRAPHIC] [TIFF OMITTED] T4364.209

[GRAPHIC] [TIFF OMITTED] T4364.210

[GRAPHIC] [TIFF OMITTED] T4364.211

[GRAPHIC] [TIFF OMITTED] T4364.212

[GRAPHIC] [TIFF OMITTED] T4364.213

[GRAPHIC] [TIFF OMITTED] T4364.214

[GRAPHIC] [TIFF OMITTED] T4364.215

[GRAPHIC] [TIFF OMITTED] T4364.216

[GRAPHIC] [TIFF OMITTED] T4364.217

[GRAPHIC] [TIFF OMITTED] T4364.218

[GRAPHIC] [TIFF OMITTED] T4364.219

[GRAPHIC] [TIFF OMITTED] T4364.220

[GRAPHIC] [TIFF OMITTED] T4364.221

[GRAPHIC] [TIFF OMITTED] T4364.222

[GRAPHIC] [TIFF OMITTED] T4364.223

[GRAPHIC] [TIFF OMITTED] T4364.224

[GRAPHIC] [TIFF OMITTED] T4364.225

[GRAPHIC] [TIFF OMITTED] T4364.226

[GRAPHIC] [TIFF OMITTED] T4364.227

[GRAPHIC] [TIFF OMITTED] T4364.228

[GRAPHIC] [TIFF OMITTED] T4364.229

[GRAPHIC] [TIFF OMITTED] T4364.230

[GRAPHIC] [TIFF OMITTED] T4364.231

[GRAPHIC] [TIFF OMITTED] T4364.232

[GRAPHIC] [TIFF OMITTED] T4364.233

[GRAPHIC] [TIFF OMITTED] T4364.234

[GRAPHIC] [TIFF OMITTED] T4364.235

[GRAPHIC] [TIFF OMITTED] T4364.236

[GRAPHIC] [TIFF OMITTED] T4364.237

[GRAPHIC] [TIFF OMITTED] T4364.238

[GRAPHIC] [TIFF OMITTED] T4364.239

[GRAPHIC] [TIFF OMITTED] T4364.240

[GRAPHIC] [TIFF OMITTED] T4364.241

[GRAPHIC] [TIFF OMITTED] T4364.242

[GRAPHIC] [TIFF OMITTED] T4364.243

[GRAPHIC] [TIFF OMITTED] T4364.244

[GRAPHIC] [TIFF OMITTED] T4364.245

[GRAPHIC] [TIFF OMITTED] T4364.246

[GRAPHIC] [TIFF OMITTED] T4364.247

[GRAPHIC] [TIFF OMITTED] T4364.248

[GRAPHIC] [TIFF OMITTED] T4364.249

[GRAPHIC] [TIFF OMITTED] T4364.250

[GRAPHIC] [TIFF OMITTED] T4364.251

[GRAPHIC] [TIFF OMITTED] T4364.252

[GRAPHIC] [TIFF OMITTED] T4364.253

[GRAPHIC] [TIFF OMITTED] T4364.254

[GRAPHIC] [TIFF OMITTED] T4364.255

[GRAPHIC] [TIFF OMITTED] T4364.256

[GRAPHIC] [TIFF OMITTED] T4364.257

[GRAPHIC] [TIFF OMITTED] T4364.258

[GRAPHIC] [TIFF OMITTED] T4364.259

[GRAPHIC] [TIFF OMITTED] T4364.260

[GRAPHIC] [TIFF OMITTED] T4364.261

[GRAPHIC] [TIFF OMITTED] T4364.262

[GRAPHIC] [TIFF OMITTED] T4364.263

[GRAPHIC] [TIFF OMITTED] T4364.264

[GRAPHIC] [TIFF OMITTED] T4364.265

[GRAPHIC] [TIFF OMITTED] T4364.266

[GRAPHIC] [TIFF OMITTED] T4364.267

[GRAPHIC] [TIFF OMITTED] T4364.268

[GRAPHIC] [TIFF OMITTED] T4364.269

[GRAPHIC] [TIFF OMITTED] T4364.270

[GRAPHIC] [TIFF OMITTED] T4364.271

[GRAPHIC] [TIFF OMITTED] T4364.272

[GRAPHIC] [TIFF OMITTED] T4364.273

[GRAPHIC] [TIFF OMITTED] T4364.274

[GRAPHIC] [TIFF OMITTED] T4364.275

[GRAPHIC] [TIFF OMITTED] T4364.276

[GRAPHIC] [TIFF OMITTED] T4364.277

[GRAPHIC] [TIFF OMITTED] T4364.278

[GRAPHIC] [TIFF OMITTED] T4364.279

[GRAPHIC] [TIFF OMITTED] T4364.280

[GRAPHIC] [TIFF OMITTED] T4364.281

[GRAPHIC] [TIFF OMITTED] T4364.282

[GRAPHIC] [TIFF OMITTED] T4364.283

[GRAPHIC] [TIFF OMITTED] T4364.284

[GRAPHIC] [TIFF OMITTED] T4364.285

[GRAPHIC] [TIFF OMITTED] T4364.286

[GRAPHIC] [TIFF OMITTED] T4364.287

[GRAPHIC] [TIFF OMITTED] T4364.288

[GRAPHIC] [TIFF OMITTED] T4364.289

[GRAPHIC] [TIFF OMITTED] T4364.290

[GRAPHIC] [TIFF OMITTED] T4364.291

[GRAPHIC] [TIFF OMITTED] T4364.292

[GRAPHIC] [TIFF OMITTED] T4364.293

[GRAPHIC] [TIFF OMITTED] T4364.294

[GRAPHIC] [TIFF OMITTED] T4364.295

[GRAPHIC] [TIFF OMITTED] T4364.296

[GRAPHIC] [TIFF OMITTED] T4364.297

[GRAPHIC] [TIFF OMITTED] T4364.298

[GRAPHIC] [TIFF OMITTED] T4364.299

[GRAPHIC] [TIFF OMITTED] T4364.300

[GRAPHIC] [TIFF OMITTED] T4364.301

[GRAPHIC] [TIFF OMITTED] T4364.302

[GRAPHIC] [TIFF OMITTED] T4364.303

[GRAPHIC] [TIFF OMITTED] T4364.304

[GRAPHIC] [TIFF OMITTED] T4364.305

[GRAPHIC] [TIFF OMITTED] T4364.306

[GRAPHIC] [TIFF OMITTED] T4364.307

[GRAPHIC] [TIFF OMITTED] T4364.308

[GRAPHIC] [TIFF OMITTED] T4364.309

[GRAPHIC] [TIFF OMITTED] T4364.310

[GRAPHIC] [TIFF OMITTED] T4364.311

[GRAPHIC] [TIFF OMITTED] T4364.312

[GRAPHIC] [TIFF OMITTED] T4364.313

[GRAPHIC] [TIFF OMITTED] T4364.314

[GRAPHIC] [TIFF OMITTED] T4364.315

[GRAPHIC] [TIFF OMITTED] T4364.316

[GRAPHIC] [TIFF OMITTED] T4364.317

[GRAPHIC] [TIFF OMITTED] T4364.318

[GRAPHIC] [TIFF OMITTED] T4364.319

[GRAPHIC] [TIFF OMITTED] T4364.320

[GRAPHIC] [TIFF OMITTED] T4364.321

[GRAPHIC] [TIFF OMITTED] T4364.322

[GRAPHIC] [TIFF OMITTED] T4364.323

[GRAPHIC] [TIFF OMITTED] T4364.324

[GRAPHIC] [TIFF OMITTED] T4364.325

[GRAPHIC] [TIFF OMITTED] T4364.326

[GRAPHIC] [TIFF OMITTED] T4364.327

[GRAPHIC] [TIFF OMITTED] T4364.328

[GRAPHIC] [TIFF OMITTED] T4364.329

[GRAPHIC] [TIFF OMITTED] T4364.330

[GRAPHIC] [TIFF OMITTED] T4364.331

[GRAPHIC] [TIFF OMITTED] T4364.332

[GRAPHIC] [TIFF OMITTED] T4364.333

[GRAPHIC] [TIFF OMITTED] T4364.334

[GRAPHIC] [TIFF OMITTED] T4364.335

[GRAPHIC] [TIFF OMITTED] T4364.336

[GRAPHIC] [TIFF OMITTED] T4364.337

[GRAPHIC] [TIFF OMITTED] T4364.338

[GRAPHIC] [TIFF OMITTED] T4364.339

[GRAPHIC] [TIFF OMITTED] T4364.340

[GRAPHIC] [TIFF OMITTED] T4364.341

[GRAPHIC] [TIFF OMITTED] T4364.342

[GRAPHIC] [TIFF OMITTED] T4364.343

[GRAPHIC] [TIFF OMITTED] T4364.344

[GRAPHIC] [TIFF OMITTED] T4364.345

[GRAPHIC] [TIFF OMITTED] T4364.346

[GRAPHIC] [TIFF OMITTED] T4364.347

[GRAPHIC] [TIFF OMITTED] T4364.348

[GRAPHIC] [TIFF OMITTED] T4364.349

[GRAPHIC] [TIFF OMITTED] T4364.350

[GRAPHIC] [TIFF OMITTED] T4364.351

[GRAPHIC] [TIFF OMITTED] T4364.352

[GRAPHIC] [TIFF OMITTED] T4364.353

[GRAPHIC] [TIFF OMITTED] T4364.354

[GRAPHIC] [TIFF OMITTED] T4364.355

[GRAPHIC] [TIFF OMITTED] T4364.356

[GRAPHIC] [TIFF OMITTED] T4364.357

[GRAPHIC] [TIFF OMITTED] T4364.358

[GRAPHIC] [TIFF OMITTED] T4364.359

[GRAPHIC] [TIFF OMITTED] T4364.360

[GRAPHIC] [TIFF OMITTED] T4364.361

[GRAPHIC] [TIFF OMITTED] T4364.362

[GRAPHIC] [TIFF OMITTED] T4364.363

[GRAPHIC] [TIFF OMITTED] T4364.364

[GRAPHIC] [TIFF OMITTED] T4364.365

[GRAPHIC] [TIFF OMITTED] T4364.366

[GRAPHIC] [TIFF OMITTED] T4364.367

[GRAPHIC] [TIFF OMITTED] T4364.368

[GRAPHIC] [TIFF OMITTED] T4364.369

[GRAPHIC] [TIFF OMITTED] T4364.370

[GRAPHIC] [TIFF OMITTED] T4364.371

[GRAPHIC] [TIFF OMITTED] T4364.372

[GRAPHIC] [TIFF OMITTED] T4364.373

[GRAPHIC] [TIFF OMITTED] T4364.374

[GRAPHIC] [TIFF OMITTED] T4364.375

[GRAPHIC] [TIFF OMITTED] T4364.376

[GRAPHIC] [TIFF OMITTED] T4364.377

[GRAPHIC] [TIFF OMITTED] T4364.378

[GRAPHIC] [TIFF OMITTED] T4364.379

[GRAPHIC] [TIFF OMITTED] T4364.380

[GRAPHIC] [TIFF OMITTED] T4364.381

[GRAPHIC] [TIFF OMITTED] T4364.382

[GRAPHIC] [TIFF OMITTED] T4364.383

[GRAPHIC] [TIFF OMITTED] T4364.384

[GRAPHIC] [TIFF OMITTED] T4364.385

[GRAPHIC] [TIFF OMITTED] T4364.386

[GRAPHIC] [TIFF OMITTED] T4364.387

[GRAPHIC] [TIFF OMITTED] T4364.388

[GRAPHIC] [TIFF OMITTED] T4364.389

[GRAPHIC] [TIFF OMITTED] T4364.390

[GRAPHIC] [TIFF OMITTED] T4364.391

[GRAPHIC] [TIFF OMITTED] T4364.392

[GRAPHIC] [TIFF OMITTED] T4364.393

[GRAPHIC] [TIFF OMITTED] T4364.394

[GRAPHIC] [TIFF OMITTED] T4364.395

[GRAPHIC] [TIFF OMITTED] T4364.396

[GRAPHIC] [TIFF OMITTED] T4364.397

[GRAPHIC] [TIFF OMITTED] T4364.398

[GRAPHIC] [TIFF OMITTED] T4364.399

[GRAPHIC] [TIFF OMITTED] T4364.400

[GRAPHIC] [TIFF OMITTED] T4364.401

[GRAPHIC] [TIFF OMITTED] T4364.402

[GRAPHIC] [TIFF OMITTED] T4364.403

[GRAPHIC] [TIFF OMITTED] T4364.404

[GRAPHIC] [TIFF OMITTED] T4364.405

[GRAPHIC] [TIFF OMITTED] T4364.406

[GRAPHIC] [TIFF OMITTED] T4364.407

[GRAPHIC] [TIFF OMITTED] T4364.408

[GRAPHIC] [TIFF OMITTED] T4364.409

[GRAPHIC] [TIFF OMITTED] T4364.410

[GRAPHIC] [TIFF OMITTED] T4364.411

[GRAPHIC] [TIFF OMITTED] T4364.412

[GRAPHIC] [TIFF OMITTED] T4364.413

[GRAPHIC] [TIFF OMITTED] T4364.414

[GRAPHIC] [TIFF OMITTED] T4364.415

[GRAPHIC] [TIFF OMITTED] T4364.416

[GRAPHIC] [TIFF OMITTED] T4364.417

[GRAPHIC] [TIFF OMITTED] T4364.418

[GRAPHIC] [TIFF OMITTED] T4364.419

[GRAPHIC] [TIFF OMITTED] T4364.420

[GRAPHIC] [TIFF OMITTED] T4364.421

[GRAPHIC] [TIFF OMITTED] T4364.422

[GRAPHIC] [TIFF OMITTED] T4364.423

[GRAPHIC] [TIFF OMITTED] T4364.424

[GRAPHIC] [TIFF OMITTED] T4364.425

[GRAPHIC] [TIFF OMITTED] T4364.426

[GRAPHIC] [TIFF OMITTED] T4364.427

[GRAPHIC] [TIFF OMITTED] T4364.428

[GRAPHIC] [TIFF OMITTED] T4364.429

[GRAPHIC] [TIFF OMITTED] T4364.430

[GRAPHIC] [TIFF OMITTED] T4364.431

[GRAPHIC] [TIFF OMITTED] T4364.432

[GRAPHIC] [TIFF OMITTED] T4364.433

[GRAPHIC] [TIFF OMITTED] T4364.434

[GRAPHIC] [TIFF OMITTED] T4364.435

[GRAPHIC] [TIFF OMITTED] T4364.436

[GRAPHIC] [TIFF OMITTED] T4364.437

[GRAPHIC] [TIFF OMITTED] T4364.438

[GRAPHIC] [TIFF OMITTED] T4364.439

[GRAPHIC] [TIFF OMITTED] T4364.440

[GRAPHIC] [TIFF OMITTED] T4364.441

[GRAPHIC] [TIFF OMITTED] T4364.442

[GRAPHIC] [TIFF OMITTED] T4364.443

[GRAPHIC] [TIFF OMITTED] T4364.444

[GRAPHIC] [TIFF OMITTED] T4364.445

[GRAPHIC] [TIFF OMITTED] T4364.446

[GRAPHIC] [TIFF OMITTED] T4364.447

[GRAPHIC] [TIFF OMITTED] T4364.448

[GRAPHIC] [TIFF OMITTED] T4364.449

[GRAPHIC] [TIFF OMITTED] T4364.450

[GRAPHIC] [TIFF OMITTED] T4364.451

[GRAPHIC] [TIFF OMITTED] T4364.452

[GRAPHIC] [TIFF OMITTED] T4364.453

[GRAPHIC] [TIFF OMITTED] T4364.454

[GRAPHIC] [TIFF OMITTED] T4364.455

[GRAPHIC] [TIFF OMITTED] T4364.456

[GRAPHIC] [TIFF OMITTED] T4364.457

[GRAPHIC] [TIFF OMITTED] T4364.458

[GRAPHIC] [TIFF OMITTED] T4364.459

[GRAPHIC] [TIFF OMITTED] T4364.460

[GRAPHIC] [TIFF OMITTED] T4364.461

[GRAPHIC] [TIFF OMITTED] T4364.462

[GRAPHIC] [TIFF OMITTED] T4364.463

[GRAPHIC] [TIFF OMITTED] T4364.464

[GRAPHIC] [TIFF OMITTED] T4364.465

[GRAPHIC] [TIFF OMITTED] T4364.466

[GRAPHIC] [TIFF OMITTED] T4364.467

[GRAPHIC] [TIFF OMITTED] T4364.468

[GRAPHIC] [TIFF OMITTED] T4364.469

[GRAPHIC] [TIFF OMITTED] T4364.470

[GRAPHIC] [TIFF OMITTED] T4364.471

[GRAPHIC] [TIFF OMITTED] T4364.472

[GRAPHIC] [TIFF OMITTED] T4364.473

[GRAPHIC] [TIFF OMITTED] T4364.474

[GRAPHIC] [TIFF OMITTED] T4364.475

[GRAPHIC] [TIFF OMITTED] T4364.476

[GRAPHIC] [TIFF OMITTED] T4364.477

[GRAPHIC] [TIFF OMITTED] T4364.478

[GRAPHIC] [TIFF OMITTED] T4364.479

[GRAPHIC] [TIFF OMITTED] T4364.480

[GRAPHIC] [TIFF OMITTED] T4364.481

[GRAPHIC] [TIFF OMITTED] T4364.482

[GRAPHIC] [TIFF OMITTED] T4364.483

[GRAPHIC] [TIFF OMITTED] T4364.484

[GRAPHIC] [TIFF OMITTED] T4364.485

[GRAPHIC] [TIFF OMITTED] T4364.486

[GRAPHIC] [TIFF OMITTED] T4364.487

[GRAPHIC] [TIFF OMITTED] T4364.488

[GRAPHIC] [TIFF OMITTED] T4364.489

[GRAPHIC] [TIFF OMITTED] T4364.490

[GRAPHIC] [TIFF OMITTED] T4364.491

[GRAPHIC] [TIFF OMITTED] T4364.492

[GRAPHIC] [TIFF OMITTED] T4364.493

[GRAPHIC] [TIFF OMITTED] T4364.494

[GRAPHIC] [TIFF OMITTED] T4364.495

[GRAPHIC] [TIFF OMITTED] T4364.496

[GRAPHIC] [TIFF OMITTED] T4364.497

[GRAPHIC] [TIFF OMITTED] T4364.498

[GRAPHIC] [TIFF OMITTED] T4364.499

[GRAPHIC] [TIFF OMITTED] T4364.500

[GRAPHIC] [TIFF OMITTED] T4364.501

[GRAPHIC] [TIFF OMITTED] T4364.502

[GRAPHIC] [TIFF OMITTED] T4364.503


</pre></body></html>
